<html>
<title> - H.R. 6537, SANCTUARY ENHANCEMENT ACT OF 2008; AND H.R. 6204, THUNDER BAY NATIONAL MARINE SANCTUARY AND UNDERWATER PRESERVE BOUNDARY MODIFICATION ACT.</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
 H.R. 6537, SANCTUARY ENHANCEMENT ACT OF 2008; AND H.R. 6204, THUNDER 
    BAY NATIONAL MARINE SANCTUARY AND UNDERWATER PRESERVE BOUNDARY 
                           MODIFICATION ACT.

=======================================================================


                          LEGISLATIVE HEARING

                               before the

                  SUBCOMMITTEE ON FISHERIES, WILDLIFE
                               AND OCEANS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                        Thursday, July 24, 2008

                               __________

                           Serial No. 110-83

                               __________

       Printed for the use of the Committee on Natural Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov



                   U.S. GOVERNMENT PRINTING OFFICE
43-709 PDF                  WASHINGTON : 2009
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free(866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001


                     COMMITTEE ON NATURAL RESOURCES

              NICK J. RAHALL, II, West Virginia, Chairman
              DON YOUNG, Alaska, Ranking Republican Member

Dale E. Kildee, Michigan             Jim Saxton, New Jersey
Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Wayne T. Gilchrest, Maryland
Solomon P. Ortiz, Texas              Chris Cannon, Utah
Frank Pallone, Jr., New Jersey       Thomas G. Tancredo, Colorado
Donna M. Christensen, Virgin         Jeff Flake, Arizona
    Islands                          Stevan Pearce, New Mexico
Grace F. Napolitano, California      Henry E. Brown, Jr., South 
Rush D. Holt, New Jersey                 Carolina
Raul M. Grijalva, Arizona            Luis G. Fortuno, Puerto Rico
Madeleine Z. Bordallo, Guam          Cathy McMorris Rodgers, Washington
Jim Costa, California                Louie Gohmert, Texas
Dan Boren, Oklahoma                  Tom Cole, Oklahoma
John P. Sarbanes, Maryland           Rob Bishop, Utah
George Miller, California            Bill Shuster, Pennsylvania
Edward J. Markey, Massachusetts      Bill Sali, Idaho
Peter A. DeFazio, Oregon             Doug Lamborn, Colorado
Maurice D. Hinchey, New York         Mary Fallin, Oklahoma
Patrick J. Kennedy, Rhode Island     Adrian Smith, Nebraska
Ron Kind, Wisconsin                  Robert J. Wittman, Virginia
Lois Capps, California               Steve Scalise, Louisiana
Jay Inslee, Washington
Mark Udall, Colorado
Joe Baca, California
Hilda L. Solis, California
Stephanie Herseth Sandlin, South 
    Dakota
Heath Shuler, North Carolina

                     James H. Zoia, Chief of Staff
                       Rick Healy, Chief Counsel
            Christopher N. Fluhr, Republican Staff Director
                 Lisa Pittman, Republican Chief Counsel
                                 ------                                

             SUBCOMMITTEE ON FISHERIES, WILDLIFE AND OCEANS

                MADELEINE Z. BORDALLO, Guam, Chairwoman
     HENRY E. BROWN, JR., South Carolina, Ranking Republican Member

Dale E. Kildee, Michigan             Jim Saxton, New Jersey
Eni F.H. Faleomavaega, American      Wayne T. Gilchrest, Maryland
    Samoa                            Cathy McMorris Rodgers, Washington
Neil Abercrombie, Hawaii             Tom Cole, Oklahoma
Solomon P. Ortiz, Texas              Bill Sali, Idaho
Frank Pallone, Jr., New Jersey       Robert J. Wittman, Virginia
Patrick J. Kennedy, Rhode Island     Don Young, Alaska, ex officio
Ron Kind, Wisconsin
Lois Capps, California
Nick J. Rahall, II, West Virginia, 
    ex officio
                                 ------                                
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, July 24, 2008..........................     1

Statement of Members:
    Bordallo, Hon. Madeleine Z., a Delegate in Congress from Guam     1
        Prepared statement of....................................     3
    Brown, Hon. Henry E., Jr., a Representative in Congress from 
      the State of South Carolina................................     4
    Capps, Hon. Lois, a Representative in Congress from the State 
      of California..............................................     5

Statement of Witnesses:
    Dunnigan, John H., Assistant Administrator, National Ocean 
      Service, National Oceanic and Atmospheric Administration, 
      U.S. Department of Commerce................................    11
        Prepared statement of....................................    13
    Gudes, Scott B., Vice President, Government Relations, 
      National Marine Manufacturers Association..................    23
        Prepared statement of....................................    25
    Kroll, Steve, Chair, Thunder Bay Sanctuary Advisory Council..    33
        Prepared statement of....................................    35
    Marks, Rick, Principal, Hoffman, Silver, Gilman & Blasco.....    36
        Prepared statement of....................................    38
    McCotter, Hon. Thaddeus G., a Representative in Congress from 
      the State of Michigan......................................     6
        Prepared statement on H.R. 6204..........................     7
    Ros-Lehtinen, Hon. Ileana, a Representative in Congress from 
      the State of Florida.......................................     8
    Spruill, Vikki, President and CEO, Ocean Conservancy.........    18
        Prepared statement of....................................    19
    Stupak, Hon. Bart, a Representative in Congress from the 
      State of Michigan..........................................    15
        Prepared statement on H.R. 6204..........................    16
    Sullivan, Timothy J., Executive Director and CEO, The 
      Mariners' Museum...........................................    29
        Prepared statement of....................................    31

Additional materials supplied:
    Farr, Hon. Sam, a Representative in Congress from the State 
      of California, Statement submitted for the record..........    10


 LEGISLATIVE HEARING ON H.R. 6537, SANCTUARY ENHANCEMENT ACT OF 2008; 
  AND H.R. 6204, THUNDER BAY NATIONAL MARINE SANCTUARY AND UNDERWATER 
                  PRESERVE BOUNDARY MODIFICATION ACT.

                              ----------                              


                        Thursday, July 24, 2008

                     U.S. House of Representatives

             Subcommittee on Fisheries, Wildlife and Oceans

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:14 a.m. in 
Room 1334, Longworth House Office Building, Hon. Madeleine Z. 
Bordallo [Chairwoman of the Subcommittee] presiding.
    Present: Representatives Bordallo, Brown, Capps, Saxton and 
Wittman.

STATEMENT OF THE HONORABLE MADELEINE Z. BORDALLO, A DELEGATE IN 
              CONGRESS FROM THE TERRITORY OF GUAM

    Ms. Bordallo. Good morning, everyone. The legislative 
hearing by the Subcommittee on Fisheries, Wildlife and Oceans 
will now come to order. The Subcommittee is meeting today to 
hear testimony concerning H.R. 6537, the Sanctuary Enhancement 
Act of 2008, and H.R. 6204, the Thunder Bay National Marine 
Sanctuary and Underwater Preserve Boundary Modification Act.
    Pursuant to Committee Rule 4[g], the Chairwoman and the 
Ranking Minority Member will make opening statements. This 
morning the Fisheries Subcommittee meets for the purpose of 
receiving testimony on H.R. 6537, the Sanctuary Enhancement Act 
of 2008, and H.R. 6204, the Thunder Bay National Marine 
Sanctuary and Underwater Preserve Boundary Modification Act.
    During this Congress, this Subcommittee has held two 
oversight hearings to gather views from a wide range of 
stakeholders regarding reauthorization of the National Marine 
Sanctuaries Act. It is generally agreed that our national 
marine sanctuaries are fulfilling their statutory 
responsibility and that is to protect nationally significant 
areas of the marine environment.
    Witnesses also have told us that our sanctuaries are 
serving collectively as a useful demonstration model for 
ecosystem-based management. Since Congress last reauthorized 
the National Marine Sanctuaries Act in 2000, however, the 
administration and concerned stakeholders have raised specific 
issues regarding the administration of sanctuaries and the Act 
itself that this Subcommittee continues to consider.
    H.R. 6537 attempts to address many of these issues, and we 
do welcome the comments of the witnesses today and other 
stakeholders regarding the proposed amendments to the Act.
    First and foremost, in order to emphasize resource 
protection and to provide for consistency in the management of 
the sanctuaries, H.R. 6537 would formally establish a national 
marine sanctuary system to be managed by the National Oceanic 
and Atmospheric Administration in accordance with a clear 
mission statement that would be added to the Act.
    Second, H.R. 6537 calls for the inventorying and ecological 
classification by NOAA of the maritime environment and marine 
heritage resources under the jurisdiction of the United States 
based upon guidelines to be developed in consultation with the 
coastal states and territories, the Indian tribes and the 
regional fishery management councils, among others.
    H.R. 6537 would allow for additional sanctuaries to be 
designated. The bill also would provide more realistic 
timeframes for NOAA to complete management plan reviews and 
evaluate their effort or their effect to free up more resources 
to support research, management and education activities.
    During the course of its oversight, the Subcommittee was 
informed by NOAA that none of its statutory authorities under 
the National Marine Sanctuaries Act applied to its management 
responsibilities as co-trustee of the Northwestern Hawaiian 
Islands Marine National Monument.
    To address this situation, H.R. 6537 would amend the 
National Marine Sanctuaries Act to ensure that NOAA can fulfill 
the Agency's management responsibilities as a co-trustee of the 
world's largest marine protected area. Finally, several 
stakeholders maintain that the regulation of the fishing within 
marine sanctuaries is in need of clarification.
    H.R. 6537 would amend the existing Section 304 process to 
clarify the Secretary of Commerce's authority to determine the 
need for and to issue fishing regulations for sanctuaries. The 
Act would continue to utilize the regional fishery management 
councils as the principal entities responsible for drafting 
fishing regulations and provide for greater stakeholder 
consultation and review of the fishing regulations.
    Regulation of fishing within the boundaries of sanctuaries 
is recognizably a sensitive issue and clarifying the role of 
both the Secretary and the regional fishery management councils 
in drafting and approving such regulations should improve the 
management of the resources.
    So keeping in mind that all legislation can be refined and 
improved, we look forward to hearing the comments and the 
recommendations of today's witnesses to ensure that H.R. 6537 
serves to strengthen the entire sanctuary system and to address 
the myriad interests of the millions of people who live, work 
or recreate near marine sanctuaries.
    Additionally, I look forward to discussing the proposed 
boundary modifications to the Thunder Bay National Marine 
Sanctuary in the State of Michigan.
    Now, at this time I would like to recognize the Ranking 
Member, my friend from South Carolina, The Honorable Henry 
Brown.
    [The prepared statement of Ms. Bordallo follows:]

     Statement of The Honorable Madeleine Z. Bordallo, Chairwoman, 
             Subcommittee on Fisheries, Wildlife and Oceans

    This morning the Fisheries Subcommittee meets for the purpose of 
receiving testimony on H.R. 6537, the Sanctuary Enhancement Act of 
2008; and H.R. 6204, the Thunder Bay National Marine Sanctuary and 
Underwater Preserve Boundary Modification Act.
    During this Congress, this Subcommittee has held two oversight 
hearings to gather views from a wide range of stakeholders regarding 
reauthorization of the National Marine Sanctuaries Act. It is generally 
agreed that our national marine sanctuaries are fulfilling their 
statutory responsibility to protect nationally significant areas of the 
marine environment. Witnesses also have told us that our sanctuaries 
are serving collectively as a useful demonstration model for ecosystem-
based management.
    Since Congress last reauthorized the National Marine Sanctuaries 
Act in 2000, however, the Administration and concerned stakeholders 
have raised specific issues regarding the administration of sanctuaries 
and the Act itself that this Subcommittee continues to consider. H.R. 
6537 attempts to address many of these issues and we welcome the 
comments of the witnesses today and other stakeholders regarding the 
proposed amendments to the Act.
    First and foremost, in order to emphasize resource protection and 
to provide for consistency in the management of the sanctuaries, H.R. 
6537 would formally establish a National Marine Sanctuary System to be 
managed by the National Oceanic and Atmospheric Administration in 
accordance with a clear mission statement that would be added to the 
Act.
    Second, H.R. 6537 calls for the inventorying and ecological 
classification by NOAA of the maritime environment and marine heritage 
resources under the jurisdiction of the United States based upon 
guidelines to be developed in consultation with the coastal states and 
territories, Indian tribes, and the Regional Fishery Management 
Councils. H.R. 6537 would allow for additional sanctuaries to be 
designated. The bill also would provide more realistic timeframes for 
NOAA to complete management plan reviews and evaluate their effect to 
free up more resources to support research, management and education 
activities.
    During the course of its oversight, the Subcommittee was informed 
by NOAA that none of its statutory authorities under the National 
Marine Sanctuaries Act apply to its management responsibilities as co-
trustee of the Northwestern Hawaiian Islands Marine National Monument. 
To address this situation, H.R. 6537 would amend the National Marine 
Sanctuaries Act to ensure that NOAA can fulfill the agency's management 
responsibilities as a co-trustee of the world's largest marine 
protected area.
    Finally, several stakeholders maintain that the regulation of 
fishing within marine sanctuaries is in need of clarification. H.R. 
6537 would amend the existing Section 304 process to clarify the 
Secretary of Commerce's authority to determine the need for, and to 
issue, fishing regulations within sanctuaries. The Act would continue 
to utilize the Regional Fishery Management Councils as the principal 
entities responsible for drafting fishing regulations, and provide for 
greater stakeholder consultation and review of fishing regulations. 
Regulation of fishing within the boundaries of sanctuaries is 
recognizably a sensitive issue, and clarifying the role of both the 
Secretary and the Regional Fishery Management Councils in drafting and 
approving such regulations should improve the management of the 
resources.
    Keeping in mind that all legislation can be refined and improved, 
we look forward to hearing the comments and recommendations of today's 
witnesses to ensure that H.R. 6537 serves to strengthen the entire 
Sanctuary System and to address the myriad interest of the millions of 
people who live, work or recreate near marine sanctuaries. 
Additionally, I look forward to discussing the proposed boundary 
modifications to the Thunder Bay National Marine Sanctuary in the State 
of Michigan.
                                 ______
                                 

       STATEMENT OF THE HONORABLE HENRY E. BROWN, JR., A 
  REPRESENTATIVE IN CONGRESS FROM THE STATE OF SOUTH CAROLINA

    Mr. Brown. Thank you, Madam Chair. I know the National 
Marine Sanctuary Program has endured widespread support for 
many years. However, through the series of hearings that we 
have held on issues surrounding the reauthorization of the 
National Marine Sanctuaries Act, I have heard from a number of 
witnesses that they are concerned with where the program is 
headed.
    They have mentioned concerns about their activities being 
prohibited even when the sanctuary was not designated to 
regulate their specific activity, and they have mentioned 
concerns about the ability of individual sanctuary managers to 
implement regulations that restrict their ability to use 
sanctuary resources.
    These people legitimately fear for their livelihood because 
they feel they can be excluded at any time for little or no 
reason. While I have not had much time to review your 
legislation, I am afraid the bill will do nothing to ease their 
concerns. In fact, I think it will do the opposite. Individual 
sanctuaries get designated for specific reasons that for the 
most part are unique to that sanctuary.
    The destination documents for each sanctuary lay out the 
reasons for the designations and they are supposed to make it 
clear what activities are OK and which are not OK. If sanctuary 
managers continue designation documents for no good reason or 
it looks like Congress is likely to outlaw activities for all 
sanctuaries, people will feel about the sanctuary program the 
way they feel about the rest of Federal government: fear and 
distrust.
    When we designate a sanctuary, we make it pledge with the 
users of that area. If circumstances change and restrictions 
need to be put in place, the stakeholders need to be a part of 
the discussion. They should not be regulated without cause or 
without explanation.
    In addition, people are similarly concerned that the 
precedent set by the designation of the Northwest Hawaiian 
Island National Marine Monument will allow activities to be 
banned with no public comment or review. This certainly 
concerns by constituents when they hear that there is a 
potential for a monument designation off the coast of South 
Carolina.
    Madam Chairwoman, as I stated at the last hearing, on this 
issue we have a strong tradition of recreational and commercial 
fishing in South Carolina. In fact, we have very strong ties to 
the water, both inland waters and the open ocean. Any proposal 
from the Federal government to come in and override the state's 
ability to allow fishing or other activities all for sure will 
not be welcome.
    Any proposal from the Federal government to tell South 
Carolina that we cannot develop our natural gas resources off 
of our coast would not be welcome. In fact, any proposal that 
would tell us what we can or cannot do without any public input 
would, and should, be opposed and rejected. I still hear that a 
number of proposals are working their way through this 
administration to declare areas off limit to certain activities 
by Presidential decree, including off South Carolina.
    Doing this type of resource lock up without any public 
comment is wrong. Any attempt to create a sanctuary or a 
monument off South Carolina that would lock up our fishery 
resources and our energy resources is bad policy and a bad 
idea.
    Finally, Madam Chair, at least two of our witnesses start 
their testimony with statements that they were not given enough 
time to either fully review the reauthorization bill or did not 
have enough time to get input from representatives of their 
industry sector. That is unfortunate. Even though this hearing 
was scheduled in plenty of time, the legislation was not 
available until last week giving witnesses less than one week 
to prepare for the hearing and get their comments reviewed.
    For that reason and because this legislation makes a 
significant change to the sanctuary program by adding 
authorities for the national marine monuments, something which 
we have had very little discussion on in the previous hearings, 
I would like for you to make a commitment that this 
Subcommittee will not move this legislature prior to us holding 
at least one more hearing to discuss the issue surrounding the 
designation of national marine monuments and how such monuments 
would be treated once they are designated.
    I hope such a commitment can be made, and I would like to 
work with you to make sure this legislation is something that I 
can support and that will not cause more fear among those who 
make their living on the waters of the United States.
    Thanks, Madam Chairman. You have the balance of the time, 
and I welcome my colleagues as witnesses. Thank you.
    Ms. Bordallo. I thank the Ranking Member from South 
Carolina, the gentleman, Congressman Mr. Brown. Now, I would 
like to recognize the gentlelady from California, Lois Capps, 
for opening remarks.

  STATEMENT OF THE HONORABLE LOIS CAPPS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Capps. Thank you, Madam Chairwoman, for holding this 
hearing, and welcome to our first panel, our expert witnesses 
who are our colleagues, Mr. McCotter from Michigan, and 
particularly want to welcome colleague Ileana Ros-Lehtinen of 
Florida. She and I are co-chairs of the newly created sanctuary 
caucus, and it is a pleasure to work with her on behalf of some 
of the issues that our colleague, Mr. Brown, just mentioned 
inclusivity.
    Madam Chairwoman, one of the reasons I joined this 
Subcommittee was to reauthorize and be part of this process to 
reauthorize the National Marine Sanctuaries Act. This is the 
third hearing we have had on this important law in the 110th 
Congress. As you recall because you were there, one of our 
hearings was held on the site overlooking the Channel Islands 
Marine Sanctuary, which I am honored to represent, out in 
California.
    The hearings have given the Subcommittee an opportunity to 
determine if the Act has kept pace with advances in ocean 
management and science. Today we begin the next phase of this 
process. I want to congratulate you for introducing the 
Sanctuary Enhancement Act. This is a good bill.
    It makes several targeted and critical changes to the Act, 
it lists the current moratorium on the designation of new 
sanctuaries, it establishes a process for potential new sites 
to be added to the system and it improves the process for 
updating sanctuary management plans.
    I am confident that these changes will enhance and ensure 
the continued success of the sanctuary system for years to 
come. Once again, Madam Chair, you have assembled a diverse 
group of stakeholders to address the Subcommittee this morning. 
I am interested in what they think of some of the provisions 
included in the Sanctuary Enhancement Act, hopeful that with 
their suggestions we can work toward a successful 
reauthorization.
    I am ready to do my part to develop these ideas as the 
reauthorization process moves forward. Once again, thank you 
for introducing the bill and for convening this hearing. I 
yield back.
    Ms. Bordallo. I thank the gentlelady from California, Lois 
Capps, for her opening remarks. Although he is not making any 
opening remarks, I would like to introduce the gentleman from 
New Jersey, Mr. Saxton, who was a former Chairman of this 
Subcommittee. I recognize the Ranking Member.
    Mr. Brown. Madam Chair, I would like unanimous consent to 
place in the records the statement from our Ranking Member of 
the full Committee, Honorable Don Young.
    Ms. Bordallo. No objection. So ordered. Now, I would like 
to recognize our first panel, two very distinguished colleagues 
of mine, Congressman Thaddeus McCotter from Michigan and 
Congresswoman Ileana Ros-Lehtinen from Florida. I want to thank 
you both for being here this morning. I know it is a very busy 
time for us, particularly on a Thursday.
    So at this time before recognizes Congressman McCotter to 
testify I would ask unanimous consent to enter into the record 
a statement from Congressman Bart Stupak, the sponsor of H.R. 
6204, in support of his legislation. Hearing no objection, so 
ordered.
    Ms. Bordallo. Mr. McCotter, you are now invited to testify 
on H.R. 6204, which would expand the Thunder Bay National 
Marine Sanctuary.

STATEMENT OF THE HONORABLE THADDEUS McCOTTER, A REPRESENTATIVE 
             IN CONGRESS FROM THE STATE OF MICHIGAN

    Mr. McCotter. Thank you, Madam Chair. I am delighted to be 
here, I am delighted to testify on behalf of this bill by my 
colleague from Michigan, Bart Stupak. I think the idea of my 
coming in today was hatched while we were standing at first 
base at the congressional baseball game and he said what are 
you doing?
    I said well, I am planning on stealing off of Joe Baca, and 
he said well, what are you doing after that? I said well, I 
think I can come testify if you are busy, Bart. He said well, I 
will be busy, will you go testify? I said who is the Chair of 
that Subcommittee? He said Madeleine Bordallo. I said I would 
be delighted to attend. I did not know that the good gentleman 
from New Jersey was here. I might have reconsidered.
    I would like, with your permission, to enter a statement 
into the record. I would just like to add to that my personal 
belief that the Thunder Bay National Marine Sanctuary and 
Underwater Preserve has been a tremendous asset to Michigan, 
both for its archeological research as well its tourism to our 
state.
    It has been a very bipartisan issue and the leadership of 
people like my colleague, Bart Stupak, and Senator Levin across 
the rotunda, is of critical importance to our state as it 
struggles. I know there are larger concerns that are with this 
issue but in the spirit of the times I remember what Tip 
O'Neill said: All politics is local.
    I am a citizen of Michigan and this bill will have a 
tremendous impact for our residents, and I would urge that it 
be passed out of Committee.
    Ms. Bordallo. Thank you very much, Congressman McCotter, 
for your testimony. I would like to mention a little on the 
side here that I first had the opportunity to meet the 
distinguished gentleman on a trip to the Middle East. We did a 
series of concerts, I think six altogether. I did not know he 
was a very accomplished musician.
    I was part of the group, it is called the Second 
Amendments, made up of all the Members of Congress. Mr. 
McCotter there plays a very mean guitar. So it is good to see 
you again, and thank you very much for testifying this morning. 
Don't ask me what I played in that. I am just a tambourine 
player.
    [The prepared statement of Mr. McCotter follows:]

 Statement of Representative Thaddeus G. McCotter, a Representative in 
                  Congress from the State of Michigan

    Good Morning Chairwoman Bordallo, Ranking Member Brown, and members 
of the Subcommittee. Thank you for granting me this time to speak on 
the Thunder Bay National Marine Sanctuary. I am pleased to submit this 
statement in support of H.R. 6204, the Thunder Bay National Marine 
Sanctuary and Underwater Preserve Boundary Modification Act, of which I 
am an original co-sponsor.
    As you know, in 2000, the Thunder Bay National Marine Sanctuary was 
established as the thirteenth national marine sanctuary and the only 
marine sanctuary in our Great Lakes. Preceded by thirty years of 
tireless dedication, the 448 square miles of protected waters of the 
Thunder Bay National Marine Sanctuary encompasses many natural and 
cultural treasures to our Great Lakes and the nation. Certainly, the 
National Oceanic and Atmospheric Administration (NOAA) itself 
recognized Thunder Bay's unique significance in designating this 
sanctuary under its mandate is to select sites which are shown to 
contain resources of ``special national significance'' due to their 
``conservation, recreational, ecological, historical, research, 
educational, or aesthetic qualities.''
    Specifically, Thunder Bay's cold, freshwater environment has 
preserved and protected many historic shipwrecks, unseen in wrecks 
found in saltwater environments. Today, more than 200 known shipwrecks 
and 65 possible shipwrecks can be found within the boundaries of the 
Thunder Bay National Marine Sanctuary. Within this impressive array of 
shipwrecks lies a rich history detailing the early settlement of our 
Great Lakes. While the upper Great Lakes region was sparsely populated 
throughout much of the 17th and 18th centuries, in the early 19th and 
20th centuries, most of the early immigrants to the region came by boat 
due to lack of interior infrastructure development. Evidence of the 
development in Great Lakes shipping technology can be clearly seen in 
Thunder Bay's impressive inventory to sunken ships. These sunken 
vessels range from wooden sailboats to early steel-hulled steamboats, 
including a few sidewheel steamboats. One of the more well known 
shipwrecks in Thunder Bay was the wooden sidewheel steamer, NEW 
ORLEANS, which was sunk during a storm in 1849. Another famous wreck 
was the GRECIAN in 1906, which was one of the first steam powered 
``lakers'' to sail our Great Lakes. Ultimately, the GRECIAN's design 
was replaced by straight-decked lakers, typified by the ISAAC M. SCOTT, 
which also sank in Thunder Bay during the Great Storm of 1913.
    Indeed, the Environmental Impact Statement (EIS) used to study the 
designation of the Thunder Bay National Marine Sanctuary concludes the 
importance of Thunder Bay as a microcosm of the larger Great Lakes 
shipping system. To highlight one such conclusion from the EIS, 
``Virtually all types of vessels employed on the open lakes regularly 
passed along this important trade route, and most vessel types are 
represented in its shipwreck collection. These vessels were engaged at 
the time of their loss, or sometime during their careers, in nearly 
every kind of trade. Most of these trades had a national--and some had 
an international--significance and spawned uniquely designed vessels. 
Thunder Bay, therefore, impacted the design and construction of 
traditional Great Lakes craft.'' (EIS, 123)
    After its designation as a National Marine Sanctuary, NOAA, in 
cooperation with the City of Alpena and Alpena County, Michigan, 
established the Great Lakes Maritime Heritage Center. Importantly, the 
Great Lakes Maritime Heritage Center serves approximately 60,000 
visitors every year as the gateway to Thunder Bay. The Center allows 
visitors to explore shipwrecks in real time; investigate 
archaeologist's preservation of these historic shipwrecks; and discover 
our Great Lakes' maritime history through interactive exhibits. In 
2005, I had the pleasure of attending the 5th Anniversary of the 
designation of Thunder Bay National Marine Sanctuary. In June 2008, the 
Thunder Bay National Marine Sanctuary opened a new Great Lakes Maritime 
Heritage Center. Now more than ever, visitors can experience the 
wonders of Thunder Bay through all new interactive exhibits, including 
a replica shipwrecked vessel. While I have not had the opportunity to 
visit the new facility, I look forward to one day sharing this 
experience with my children.
    Importantly, to continue the preservation efforts already underway, 
I am proud to be an original co-sponsor of H.R. 6204, the Thunder Bay 
National Marine Sanctuary and Underwater Preserve Boundary Modification 
Act. Specifically, H.R. 6204 would expand the Thunder Bay National 
Marine Sanctuary to include the offshore waters of Presque Isle and 
Alcona Counties, Michigan. Significantly, these areas are home to a 
comparable number to lost vessels which archeologists and students 
alike can study and explore. Today, these shipwrecks are popular with 
many recreational divers and are integral parts of our Great Lakes' 
maritime heritage. Without proper preservation, these historic sites 
could be lost. Additionally, this expansion is welcomed by these 
surrounding communities in recognition of the good work NOAA and the 
Thunder Bay staff is already doing in Alpena.
    In conclusion, let me again thank Chairwoman Bordallo, Ranking 
Member Brown, and members of the Subcommittee for extending me the 
privilege to speak about the benefits of the Thunder Bay National 
Marine Sanctuary and H.R. 6204.
                                 ______
                                 
    Ms. Bordallo. I would like to now introduce and recognize a 
Co-Chair of the House National Marine Sanctuary Caucus, and she 
is our colleague from Florida and the co-sponsor of my bill, 
and Congressman Ileana Ros-Lehtinen. I have a hard time 
sometimes with that name.
    Ms. Ros-Lehtinen. What about your name, Madam Chair? 
Bordallo.
    Ms. Bordallo. Thank you very much for your continuing 
support for the sanctuary system, and so please begin your 
testimony.

       STATEMENT OF THE HONORABLE ILEANA ROS-LEHTINEN, A 
      REPRESENTATIVE IN CONGRESS FROM THE STATE OF FLORIDA

    Ms. Ros-Lehtinen. Thank you, Madam Chair, thank you, 
ranking Member Brown, and fellow National Marine Sanctuary 
Caucus Co-Chair and Co-Founder, my good friend from California, 
Lois Capps. We have a new member of our caucus. I had to assure 
Congressman McCotter that it is a marine sanctuary caucus and 
not sanctuary cities caucus, so he is quite relieved about 
that.
    I made quite a mess of your table here, Madam Chair. I 
poured an entire cup of water before realizing that it was all 
spilling into your beautiful table and onto me. I do not have a 
drinking problem.
    Ms. Bordallo. Well, since this is the Oceans Committee, I 
think it is very appropriate.
    Ms. Ros-Lehtinen. Right. That is what Mr. McCotter was 
saying. I am developing my own marine sanctuary right here. 
Thank you so much for the opportunity. I would like to 
recognize in the audience Don Basta, who is a good friend, a 
good friend of Lois, a good friend of mine as well. He is the 
head of the sanctuary program, so take a bow there, Don. Thank 
you.
    I sincerely appreciate the opportunity to speak before you 
in support of H.R. 6537, the Sanctuary Enhancement Act of 2008, 
introduced by the Chair. I am the original co-sponsor, as well 
as the lead Republican sponsor on the bill. I believe that we 
are at a critical period in which all Americans should unite to 
protect our ocean and coastal resources and the reauthorization 
of the Sanctuaries Act is an important step toward that goal.
    The legislation before this Committee reaffirms the 
significance of our marine resources by strengthening Federal 
authority to conserve pristine areas, increasing interagency 
collaboration and participation between the appropriate 
stakeholders, and most importantly, expand educational 
opportunities for our young people.
    I have the great honor of representing a good chunk of 
paradise in this beautiful country. My district consists of 265 
miles of Florida coastline from the tip of Miami Beach all the 
way down to Key West. The Florida Keys, in particular, is one 
of the most ecologically diverse areas in the nation. I think 
that applies to humans as well. It is pretty diverse.
    The Keys are home to two national parks, four national 
wildlife refuges and the Florida Keys National Marine 
Sanctuary, and there are currently 13 national marine 
sanctuaries and one marine national monument established in 
areas where the natural or cultural resources are so 
significant that they warrant special status and protection.
    Our sanctuary, established by Congress in 1990, includes 
the most extensive coral reef system in the continental United 
States and the third largest in the world.
    National marine sanctuaries provide economic, environmental 
and educational benefits to surrounding communities and 
visiting populations, and these benefits are fully realized in 
my home district where the national marine sanctuary is a prime 
hub for tourism, it is a critical source of revenue for local 
industries, and it has an underwater lab for children and 
adults.
    Each year, nearly two million tourists visit the Florida 
Keys, including so many ocean enthusiasts, scuba divers--and I 
am a scuba diver myself--and the attractions of our sanctuary 
system contribute greatly to the total value of Florida's 
tourist economies and fisheries.
    Commercial and recreational fisherman, as Mr. Brown had 
pointed out, operating within sanctuary waters, they contribute 
millions of dollars to Florida's economy annually. In fact, our 
sanctuary is a model for collaboration and cooperation between 
the scientific and commercial fishing industries throughout the 
United States.
    Provisions included in today's bill seek to strengthen the 
interaction between industry stakeholders and conservationists.
    I know that numerous commercial fishermen, including those 
in my congressional district, are concerned about the role of 
their industry in future sanctuary designations and potential 
area closures, but I look forward to working with members of 
this Subcommittee and the full Committee in ensuring that the 
final bill does, indeed, maintain the role of regional 
fisheries council and also invites individual fishermen in 
decisionmaking that affects their livelihood.
    I am a former teacher so I believe that life and learning 
are very much connected, and sanctuary systems provide 
countless educational opportunities for students of all ages. I 
look forward to working with this Subcommittee and with the 
full Committee on strengthening our sanctuaries program while 
protecting the commercial fishing industry. Thank you so much, 
Madam Chair, Ranking Member, Mr. Saxton and Ms. Capps.
    Ms. Bordallo. I want to thank you very much for your 
excellent remarks, Ms. Ros-Lehtinen, and thank you, also, for 
your support for a vibrant and effective national marine 
sanctuary system. I know you are from the great State of 
Florida so you are surrounded by water, just as we are, and I 
do want to go on record to thank you for some of the past 
support that you have given the territory of Guam.
    We still have a bill lingering in the Senate and you have 
been very, very helpful. I want to thank you very much for your 
die hard support of that piece of legislation. Also to Mr. 
McCotter. I know you are both very busy people.
    Ms. Bordallo. Is there anybody that wishes to ask any 
questions of----
    [No response.]
    Ms. Bordallo. All right. I want to thank you both then. I 
would like to ask unanimous consent to enter into the record a 
statement in support of H.R. 6537 on behalf of Congressman Sam 
Farr. Hearing no objection, so ordered.
    [The statement submitted for the record by Mr. Farr 
follows:]

   Statement of The Honorable Sam Farr, a Representative in Congress 
                      from the State of California

    Having been born and raised on the Central Coast of California, I 
have long admired the bounty and the beauty produced from the rich 
ecosystems of our oceans. I thank Chairwoman Bordallo for holding this 
hearing on the reauthorization, strengthening, and clarification of the 
National Marine Sanctuaries Act. I believe that the National Marine 
Sanctuaries are a vital tool for the conservation of our oceans and 
important models for ecosystem based management. This legislation will 
make it clear that the primary purpose of the sanctuaries is the long-
term protection and conservation of the living and nonliving resources.
    The Monterey Bay National Marine Sanctuary (MBNMS), which I am 
proud to have in my district, contains our nation's largest kelp 
forest, one of North America's largest underwater canyons, and the 
nearest-to-shore deep ocean environment in the continental United 
States. The sanctuary is home to one of the most diverse marine 
ecosystems in the world, including 33 species of marine mammals, 94 
species of seabirds, 345 species of fishes, and numerous invertebrates 
and plants. These features make it ideally situated for learning about 
and engaging the public with the marine environment and I believe its 
establishment has contributed to the health of our coastal economy.
    Having been a long-time supporter of the sanctuary, and lifetime 
resident on its shores, I have witnessed the Monterey Bay National 
Marine Sanctuary's commitment to building a strong foundation for 
continued success by actively engaging local residents in what is 
possibly the most involved citizen advisory group in the system. I 
believe it is this commitment that has maintained the broad base of 
support that continues to be the sanctuary's greatest asset.
    The management of the National Marine Sanctuaries requires that we 
take the long view and ensure that we continue to have productive, 
healthy oceans. The protections for the ocean ecosystems that the 
Sanctuaries provide do not endanger the commercial and recreational 
fishing industries, but will guarantee the continued existence of these 
businesses and these ways of life for future generations of fishermen.
    The sanctuaries are an important part of the protections of the 
ocean that the people in my district have come to expect. They 
represent a promise that we will maintain the ecosystems that are the 
cornerstone of commercial fishing, recreational fishing and boating, 
and tourism on the coast. Recreational uses of the ocean alone account 
for more than $100 billion of the coastal economies, with wildlife 
viewing alone generating up to $50 billion. These sanctuaries will 
ensure that there remains something for our grandchildren to come see.
    The sanctuaries protect fragile benthic habitats from destructive 
drilling for oil. They also restrict ship traffic in order to protect 
these ocean waters from future oil spills and to avoid repeating the 
disastrous consequences from oil spills in the past. During the Cosco 
Busan oil spill the staff and the impressively knowledgeable volunteers 
of the Sanctuaries on the California coast aided the oil spill response 
teams in monitoring and cleanup along the coast. I do not want to 
imagine the outcome without these dedicated and caring people. The 
sanctuaries guarantee that we will not sacrifice these amazing and 
productive living resources for short term economic gain.
    Finally we must not underestimate the scientific benefit of having 
places from which we can learn about the complex systems of the ocean 
on which our climate, our weather, much of our economy, and our food 
supply depends. The importance of our oceans will only increase in the 
coming decades as the communities along the coasts and inland are 
forced to adapt to changes in our climate.
    I am pleased that we are starting the process of strengthening and 
clarifying the best marine conservation program that we currently have. 
I believe we need to include and educate all people who have a stake in 
healthy, pristine, and productive oceans in this process. I look 
forward to working on this and protecting
                                 ______
                                 
    Ms. Bordallo.The Chairwoman now recognizes the second panel 
of witnesses, Mr. John Dunnigan, the Assistant Administrator 
for Ocean Services, National Oceanic and Atmospheric 
Administration; Ms. Vikki Spruill, President and CEO of the 
Ocean Conservancy; Mr. Scott B. Gudes, Vice President, 
Government Relations, National Marine Manufacturers 
Association; Mr. Timothy Sullivan, Executive Director and CEO, 
The Mariners' Museum; Mr. Steve Kroll, Chairman, Thunder Bay 
National Marine Sanctuary Advisory Council, Diving 
Representative; and Mr. Rick Marks, Principal, Hoffman, Silver, 
Gilman & Blasco.
    I now recognize Mr. Dunnigan to testify for five minutes, 
and I would note for all the witnesses that the red timing 
light on the table will indicate when your time has concluded 
and we would appreciate your cooperation in complying with the 
limits that have been set as we have several witnesses to hear 
from today. Be assured that your full written statement will be 
submitted for the hearing record.
    Now, if you would, Mr. Dunnigan, please begin.

    STATEMENT OF THE HONORABLE JOHN H. DUNNIGAN, ASSISTANT 
 ADMINISTRATOR FOR OCEAN SERVICES AND COASTAL ZONE MANAGEMENT, 
   NATIONAL OCEAN SERVICE, NATIONAL OCEANIC AND ATMOSPHERIC 
                         ADMINISTRATION

    Mr. Dunnigan. Thank you, Madam Chairwoman. Members of the 
Committee, good morning. Let me say how much I appreciate the 
opportunity to be back here today on behalf of NOAA and the 
administration in support of one of the strongest programs that 
we have in Oceans and Marine Affairs for the conservation and 
protection of valuable resources.
    Since you have indicated, Madam Chairwoman, that the 
statements will be entered in full in the record, let me just 
make a few comments. The National Marine Sanctuaries Act really 
is one of the strongest pieces of Federal legislation for 
protecting both natural, as well as cultural, resources for the 
oceans and the great lakes, and yes and no, we recognize that 
the great lakes are oceans, too.
    The Sanctuaries Act is unique among a suite of Federal laws 
aimed at protecting marine resources because its primary 
objective is to identify marine areas of special national 
significance for their protection and conservation and for 
managing these special places as ecosystems so that we can 
maintain their natural biodiversity as well as the historical 
and cultural heritage that is associated with these wonderful 
places.
    NOAA fully supports the reauthorization of the National 
Marine Sanctuaries Act, and so we very much appreciate the 
opportunity to once again reiterate our views for the 
priorities for that reauthorization. Madam Chairwoman, we have 
not had sufficient time to completely review the provisions of 
H.R. 6537, and so I can't give you specific comments today on 
behalf of the administration.
    We do, however, look forward to continuing our work with 
the Committee and the Committee staff. We have been doing that 
over the last couple of months providing technical assistance. 
As we go through the bill, we look forward to working with you 
some more. If I could, let me just mention a couple of issues 
that we have testified before this Committee before about that 
we think are some high priority themes that need to be carried 
forward.
    First, although the Sanctuary Act's primary purpose is 
resource protection, we think that the Sanctuary Act has lacked 
an overarching sense of mission since the law was first passed 
in 1972, and so in clarifying the primary purpose of this bill, 
the National Marine Sanctuaries Act could be modified to 
include a standalone purpose and policy that very clearly 
states what it is that the Congress is trying to achieve 
through this legislation rather than the way the bill is 
written today where you have to go through the law in a number 
of different places and try to tease out what are the important 
and salient policy prerogatives that are contained in it.
    So establishing a clear primary mission and focus for the 
law is something that we think needs to be done. Second, we 
think that there are some improvements that can be made in the 
processes contained in the law, particularly the sanctuary 
identification and designation process. For some time there has 
been a moratorium on the consideration of new sanctuaries.
    As I said to you a couple of weeks ago when we were here at 
the last hearing, we think it is time to allow that moratorium 
to be lifted, not necessarily so that we would move forward and 
identify or designate a whole swath of new sanctuaries, but 
really to create a better opportunity for us to evaluate, and 
plan, and look at the system as a whole so that we can make 
better judgments as to how it ought to be operating.
    We also believe very strongly in NOAA in public process, 
and I recognize a number of comments that had been made so far 
in this hearing this morning. We have a longstanding commitment 
to transparency and to working with the public. Our sanctuary 
advisory councils are critical to the success of the process 
that we have today. We think that whatever processes are 
carried forward need to recognize the importance of the 
public's engagement in making these decisions.
    The last point that I would like to mention is this 
question of marine national monuments. This was brought to us 
new when the President designated the Papahanaumokuakea Marine 
National Monument. We are looking for an opportunity to try to 
make the requirements of monuments under the Antiquities Act 
work with the resources that we have under the Sanctuaries Act.
    We think that would be a good thing to include in the 
reauthorization of the law. Let me make one last comment, if I 
could, about Thunder Bay. NOAA agrees with the underlying 
purpose of H.R. 6204 to provide Federal protection to the 
shipwrecks and other maritime heritage resources located off of 
Michigan's Presque Isle and Alcona Counties by incorporating 
them into the Thunder Bay National Marine Sanctuary.
    There is a lot of public support for this. We recognize it. 
We have had a lot of opportunity to work with the public. Our 
general view is that these are better done through the 
sanctuary process rather than by statute, but, in fact, this is 
a wonderful part of the national marine sanctuary system, and 
we look forward to being able to continue to work with the 
Committee. Thank you, Madam Chairwoman.
    Ms. Bordallo. Thank you, Mr. Dunnigan, and we look forward 
to working with NOAA to refine and improve this legislation to 
strengthen the mission and the capabilities of the national 
marine sanctuary system. I want to go on record to congratulate 
you. You are able to pronounce that monument in Hawaii.
    Mr. Dunnigan. It is a requirement of the job, ma'am.
    Ms. Bordallo. Thank you very much.
    [The prepared statement of Mr. Dunnigan follows:]

Statement of John H. Dunnigan, Assistant Administrator, National Ocean 
    Service, National Oceanic and Atmospheric Administration, U.S. 
                         Department of Commerce

INTRODUCTION
    Good morning, Madam Chair and members of the Subcommittee. I am 
John H. Dunnigan, Assistant Administrator for Ocean Services and 
Coastal Zone Management for the National Oceanic and Atmospheric 
Administration (NOAA). Thank you for the opportunity to testify on H.R. 
6537, the Sanctuary Enhancement Act of 2008 and H.R. 6204, the Thunder 
Bay National Marine Sanctuary and Underwater Preserve Boundary 
Modification Act.
    Thirty-six years ago, Congress passed the Marine Protection, 
Research, and Sanctuaries Act of 1972 (P.L. 92-532). Title III of that 
law, later named the National Marine Sanctuaries Act (the NMSA), 
authorized the Secretary of Commerce to designate areas of the marine 
environment, including the Great Lakes, as national marine sanctuaries.
    The NMSA is one of the strongest pieces of federal legislation for 
protecting both natural and cultural resources in the oceans and Great 
Lakes. The NMSA is unique among the suite of federal laws aimed at 
protecting or managing marine resources in that its primary objective 
is to set aside marine areas of special national significance for their 
permanent protection and to manage them as ecosystems to maintain their 
natural biodiversity and historical and cultural heritage.
    NOAA fully supports reauthorization of the NMSA and appreciates the 
opportunity to once again reiterate our priorities for reauthorization. 
Although we have not had sufficient time to review H.R. 6537 and cannot 
provide specific comments on it today, we look forward to working with 
the Committee in the future once we've conducted a more thorough 
analysis. My testimony today will therefore focus more generally on 
NOAA's priorities for reauthorization and on H.R. 6204.
PRIORITIES for NMSA reauthorization
    The NMSA is one of the nation's most successful marine resource 
conservation laws and its reauthorization should be a top priority of 
Congress as it considers environmental legislation. There are, however, 
several issues that the Administration considers ripe for change within 
the Act.
    NOAA's top three priorities for NMSA reauthorization are to:
    <bullet>  Clarify and strengthen that the NMSA's primary mission is 
resource protection.
    <bullet>  Streamline and clarify the processes of: (1) identifying 
and evaluating sites for possible designation as national marine 
sanctuaries; (2) selecting eligible sites to begin the designation 
process; and (3) designating sites as national marine sanctuaries.
    <bullet>  Provide those portions of marine national monuments 
managed by NOAA with legal management tools that are currently 
available to national marine sanctuaries.
The NMSA's Primary Purpose and Mission Focus
    Although the NMSA's primary purpose is resource protection, the 
NMSA has lacked an overarching mission statement since its passage in 
1972. In implementing the NMSA, NOAA must piece together current 
priorities and management goals through references found scattered 
throughout the NMSA. This has, on occasion, led to confusion as to the 
NMSA's primary mission focus. In clarifying its primary purpose, the 
NMSA could be modified to include a stand-alone purpose and policy on 
resource protection and a clear concise mission statement for NOAA in 
implementing that policy.
Sanctuary Identification and Designation
    There has been considerable confusion about the processes for 
evaluating sites for eligibility and designating them as national 
marine sanctuaries. This confusion has been a significant impediment to 
NOAA making timely decisions about designating sites and in conducting 
management plan reviews for existing national marine sanctuaries. 
Reauthorization discussions of the NMSA could include consideration of 
new language to streamline and clarify these processes with the goal of 
allowing NOAA to make more timely and predictable decisions.
    Any changes to the existing processes, however, must be made in a 
way that first and foremost preserves the NMSA's longstanding 
commitment to transparent public process. Any changes must also 
maintain the NMSA's important procedural safeguards, such as 
interagency and intergovernmental consultation requirements.
Marine National Monuments
    The Antiquities Act of 1906 (16 U.S.C. 431-433) gives the President 
authority to protect natural and cultural objects through designation 
of a national monument. Although this authority has been largely used 
to protect terrestrial resources, it has been used to protect special 
areas of the marine environment as well, including the 
Papah'naumoku'kea Marine National Monument (PMNM), which is the first 
monument NOAA has responsibility to manage. NOAA is a co-manager of the 
PMNM, along with the U.S. Fish and Wildlife Service and the State of 
Hawaii. While this statute provides a basis for strong protection, the 
NMSA provides NOAA a number of well-tested and highly valuable 
administrative management tools to effectively manage and protect 
national marine sanctuaries that are not available under the 
Antiquities Act. In particular, the NMSA provides for the recovery of 
damages from parties responsible for injuring sanctuary resources 
(section 312); it allows for a community-based advisory council to 
provide input in sanctuary management (section 315); and it allows for 
NOAA to pursue civil penalties for violations of the NMSA and 
regulations or permits issued under the NMSA (section 307). These 
authorities would be useful in marine national monuments, or portions 
thereof, that are managed by NOAA.
Technical Enhancements to Key Elements of the NMSA
    Several key elements of the NMSA lay the basic foundation for 
management of the National Marine Sanctuary System and provide 
essential statutory authority to ensure its overarching goals and 
objectives are efficiently met. These include the ability to conduct 
enforcement (section 307), the authority to issue regulations (section 
308), the mandate to conduct scientific research and educational 
programs (section 309), the flexibility to issue special use permits 
(section 310), the authority to enter into cooperative agreements 
(section 311), the authority to collect damages from parties 
responsible for injuring sanctuary resources (section 312), the 
authority to establish and convene advisory councils (section 315), and 
the authority to solicit sponsors and accept other forms of support 
(section 316). Reauthorization discussions could include careful 
evaluation of these foundational pieces of the NMSA and update them as 
necessary to ensure they continue to meet NOAA's needs. For example, 
some considerations could include:
    <bullet>  increasing the maximum civil administrative penalty per 
day per offense, to provide a greater deterrent;
    <bullet>  providing better clarity on the issuance and enforcement 
of permits (e.g., clarify that NOAA has the authority to revoke permits 
it issues under the authority of NMS regulations);
    <bullet>  making the management of advisory councils more efficient 
by eliminating the 15-member limit on advisory councils for sanctuaries 
designated after November 4, 1992; and
    <bullet>  allowing NOAA to withhold data and information that, if 
released, could result in injury to sanctuary resources.
THUNDER BAY EXPANSION
    NOAA agrees with the underlying purpose of H.R. 6204, which is to 
provide federal protection to the shipwrecks, and other maritime 
heritage resources, located off Michigan's Presque Isle and Alcona 
Counties by incorporating them into the Thunder Bay National Marine 
Sanctuary and Underwater Preserve (Sanctuary). This proposal also has 
widespread support in the local communities. On May 22, 2007, the 
Thunder Bay Sanctuary Advisory Council (SAC) recommended expanding the 
Sanctuary to a 3,662-square-mile area extending from Alcona County to 
Presque Isle County, east to the international border with Canada. 
Formal support for sanctuary expansion has been received from the City 
of Alpena, Alpena County, Alpena Township, Sanborn Township, Presque 
Isle Township, the City of Rogers City, Alcona County, Michigan Sunrise 
Side Travel Association, and the Sunrise Side Coastal Highway 
Management Council. While there is public support for such an 
expansion, as a general matter NOAA prefers to see that significant 
actions such as these be vetted through public management plan and 
regulatory development processes rather than legislatively, as H.R. 
6204 would do.
    The Sanctuary was designated in October 2000 for the purposes of 
providing long-term protection and management to the conservation, 
recreational, research, educational, and historical resources and 
qualities of a nationally significant collection of shipwrecks and 
other maritime heritage resources in the area. The bill would increase 
the size of the Sanctuary by approximately eight times its current size 
of 448 square miles. The Sanctuary's shoreline would also increase from 
95 to 225 miles and subsequently include the cities of Alpena, 
Harrisville and Rogers City. Under this proposal an additional five 
state park properties, seven historic lighthouses and one lifesaving 
station would also be adjacent to the expanded boundaries.
    More than 200 shipwrecks rest within the proposed boundaries. 
Magnificently preserved by the cold freshwater of Lake Huron, these 
archeological sites are one of the nation's best-preserved and 
historically-significant collections of shipwrecks. From pioneer 
steamers to majestic schooners to modern freighters, these sites 
represent a microcosm of maritime commerce on the Great Lakes. As 
memorials to the men and women that worked the inland seas, these 
unique sites have tremendous historical, archaeological, and 
recreational value. They not only connect us to the past, but they also 
connect us to the Great Lakes--one of our most precious natural 
resources.
CONCLUSION
    In closing, I'd like to reiterate NOAA's support for NMSA 
reauthorization and our sincere gratitude for the hard work this 
Subcommittee has done toward that goal. We look forward to working with 
the Subcommittee once we've conducted a more thorough analysis of the 
bill. I also would like to reiterate NOAA's support for the underlying 
purpose of H.R. 6204.
    Thank you again for the opportunity to offer my thoughts on these 
important issues. I will be glad to answer any questions you may have.
                                 ______
                                 
    Ms. Bordallo. At this time we are going to interrupt for 
just a few minutes. Congressman Stupak has come in and he is 
the sponsor of 6204, so the Committee would like to have him 
give his opening remarks and statement on that bill. 
Congressman, go ahead.

  STATEMENT OF THE HONORABLE BART STUPAK, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Stupak. Well, thank you, Madam Chairwoman, and thank 
you for the courtesy. I was helping Oversight Investigations do 
a hearing. But this is H.R. 6204, the Thunder Bay National 
Marine Sanctuary and Underwater Preserve Boundary Modification 
Act. It is of great concern to us and enjoys full support 
throughout my district.
    What started off as a marine sanctuary, the first one on 
the Great Lakes, somewhat controversial a number of years ago, 
very few elected officials would support it, but now we enjoy 
widespread support from all the counties affected. It has had a 
tremendous impact on our community and tourism.
    It has opened the eyes of so many people as to I should say 
the depths of the Great Lakes, all the shipwrecks we have had, 
how the deep, cold waters in the bottom of those lakes have 
preserved those shipwrecks for so many years, and we look 
forward to expanding the marine sanctuary. It has been a great 
asset with great pride.
    The State of Michigan and the local communities have 
expanded the heritage center that now connects underwater 
cameras to some of the shipwrecks. We just had a grand opening 
of the new center about two, three weeks ago. A tremendous 
turnout, tremendous support. So we are asking for this 
Committee if you would approve the boundary modification. Make 
it larger to include about another 117 more shipwrecks in this 
part of Lake Huron.
    We certainly appreciate the help and support of this 
Subcommittee and the full Committee, and we look forward to 
continuing to expand the enjoyment, the excitement, the 
discovery process, the eyes that we open up for people around 
the Great Lakes as to our great maritime history in the Great 
Lakes. Thank you for your help and support, Madam Chair, and to 
all the members.
    Thank you for taking me out of order and the courtesy shown 
here today. I will go back up on my hearing on long-term care.
    [The prepared statement of Mr. Stupak follows:]

 Statement of The Honorable Bart Stupak, a Representative in Congress 
                       from the State of Michigan

    Thank you Chairwoman Bordallo, Ranking Member Brown, and Members of 
the Subcommittee for holding this hearing on H.R. 6204, the Thunder Bay 
National Marine Sanctuary and Underwater Preserve Boundary Modification 
Act.
    I also want to thank the bill's original co-sponsors Congressman 
Kildee and Congressman McCotter, who's efforts have been instrumental 
in bringing my bill to the Committee.
    In 1975, Michigan State University in response to local interest 
collected an inventory of shipwrecks located within Lake Huron's 
Thunder Bay. What they found was that Thunder Bay potentially contained 
the largest number of historical shipwrecks in the country.
    This discovery warranted the establishment of an underwater 
``reserve'' and in 1981 the state of Michigan declared Thunder Bay as 
Michigan's first Great Lakes Bottomland Preserve.
    Following this state recognition, the National Oceanic and 
Atmospheric Administration designated the Thunder Bay National Marine 
Sanctuary in 2000 making it the first sanctuary in the Great Lakes.
    The Sanctuary is a federal-state partnership with a unique focus on 
preserving the large collection of underwater cultural resources. These 
resources consist of over 100 shipwrecks spanning over 200 years of 
Great Lakes shipping history.
    In order to study and preserve the cultural resources present at 
Thunder Bay, the National Oceanic and Atmospheric Administration and 
the State of Michigan established the Great Lakes Maritime Heritage 
Center in Alpena, Michigan in 2005.
    The Great Lakes Maritime Heritage Center allows visitors to learn 
about Great Lakes' maritime history, explore shipwrecks via live video 
feeds, and see how archaeologists continue to work to preserve these 
historic sites.
    To continue this positive outcome, the Thunder Bay Sanctuary 
Advisory Council, a fifteen-member group representing local interests 
such as fishermen, the business community, educational institutions, 
and local government, have passed a resolution that recommended the 
sanctuary be expanded.
    My legislation, H.R. 6204, would extend the sanctuary's boundaries 
to include the waters off Alcona, Alpena and Presque Isle counties in 
Michigan and extend the sanctuary east to the international boundary 
with Canada.
    Currently, the sanctuary covers 448 square miles of water and 115 
miles of shoreline, protecting 116 shipwrecks. H.R. 6204 would increase 
this area to 3,722 square miles of water and 226 miles of shoreline, 
adding an additional 180 shipwrecks to the Sanctuary.
    In addition, the legislation would direct NOAA to produce updated 
charts of the newly designated areas and apply the protection and 
preservation provisions in the existing management plan to the newly 
added areas.
    By authorizing an expansion to the Thunder Bay National Marine 
Sanctuary, the affected local communities would receive the benefits of 
having additional historical resources highlighted and preserved, as 
well as increased tourism, which is an important driver for economic 
growth.
    The Senate companion bill, S. 2281, introduced by Senator Carl 
Levin, was approved by the Committee on Commerce, Science, and 
Transportation on May 15, 2008.
    It is my hope that this Committee will also support this 
legislation, so we may make this expansion a reality. I thank you again 
for allowing me to testify, and for your consideration of my 
legislation.
                                 ______
                                 
    Ms. Bordallo. I thank the gentleman from Michigan, Mr. 
Stupak, who is the author of H.R. 6204. I understand he 
represents one of the largest districts in his state. I would 
like to recognize the Ranking Member who has a question.
    Mr. Brown. Thank you, Bart. Thanks for being here today. I 
was just looking at the map, you know, showing where the 
current sanctuary is and where you want to expand it to. I 
would assume that the boundary out there would be the boundary 
that your protected waters in Michigan versus the protected 
waters in Canada. Is that the dividing line?
    Mr. Stupak. No. The dividing line is out a little bit 
farther. It is an international border there so it is quite a 
ways out there.
    Mr. Brown. OK.
    Mr. Stupak. We were still fairly close to the shoreline 
because of the reefs that are found in that area. That is where 
all those shipwrecks lie, and all lie within the State of 
Michigan. The international border is still farther out in the 
water.
    Mr. Brown. I got you.
    Mr. Stupak. I have over 1,600 miles of freshwater 
shoreline. I have more shoreline than any other congressional 
district except Alaska. So it is a pretty big district and 
Canada is very supportive of it. Right across from us is the 
Manitou Islands where they have a number of passages and 
shipwrecks that Canada is developing.
    Mr. Brown. OK. Thanks.
    Ms. Bordallo. Again, I thank the gentleman from Michigan 
for his statements today and they will be entered into the 
record. Thank you, Congressman.
    Mr. Stupak. Thank you.
    Ms. Bordallo. Now, we will continue on. I would like to 
introduce Ms. Spruill. Welcome before the Subcommittee and you 
are now recognized to testify for five minutes.

        STATEMENT OF VIKKI SPRUILL, PRESIDENT AND CEO, 
                     THE OCEAN CONSERVANCY

    Ms. Spruill. Good morning, Madam Chairwoman and members of 
the Subcommittee. I am Vikki Spruill, President and CEO at 
Ocean Conservancy. I would like to thank Chairwoman Bordallo 
for her leadership on the issue of ocean conversation and for 
moving this critical reauthorization forward.
    As is probably true for many of us here, the ocean has been 
a constant throughout my life. I was fortunate to grow up along 
the panhandle of Florida with its sugar sand beaches and 
emerald waters that attract countless tourists every year. I 
went to college in New Orleans not far from the Gulf of Mexico 
where oil rigs and refineries mark the coastal waters.
    Ocean conservancy is the country's oldest and largest ocean 
nonprofit. We harness over 35 years of policy and scientific 
expertise to anticipate ecological threats and to deliver 
sustainable solutions to protect our ocean and improve our 
quality of life. I am honored to represent a half a million 
members and volunteers from across the country.
    We believe it is time to look beneath the surface of the 
ocean to see where the health of our planet really begins. The 
ocean is Earth's life support system.
    It covers two-thirds of the planet, provides much of the 
air we breathe, the food we need, and it actually moderates the 
climate that sustains us, yet many still take it for granted, 
so it falls to us to be stewards of the ocean, to put in place 
the kinds of policies like we are discussing today that will 
conserve and protect the ocean.
    I had a lengthy career in the private sector before working 
in ocean conservation and the good news is that we are seeing 
the emergence of a new ocean ethic in which American businesses 
recognize the comprehensive value of the ocean rather than 
discrete resources to be extracted.
    I appreciated the stories from the businesspeople who 
testified in favor of this reauthorization. They told very 
compelling and personal stories about the positive impacts that 
sanctuaries had on their businesses and in their communities. 
Even though it is not the focus of today's hearing, I must say 
that I hope this ocean ethic prevails as the Congress debates 
whether to lift the moratorium on offshore drilling.
    Lifting the moratorium would do nothing to lower today's 
gas prices and there are cheaper, and faster, and safer ways to 
solve our energy crisis by investing alternative technologies. 
By far, one of the most comprehensive ways to achieve our goal 
of a healthy ocean is through a sound national marine sanctuary 
system.
    It is one of the most critical instruments in our 
conservation toolbox, and it allows us to create a healthier 
and more resilient ocean. It is our duty to make the Marine 
Sanctuaries Act the strongest law it can possibly be because 
the ocean is in trouble.
    Sanctuaries bring the best of the ocean to life for people 
and give them firsthand opportunities to experience the beauty 
and the majesty of the ocean while also protecting its 
productivity and the lives who depend on that productivity. The 
sanctuary system has shown great potential to address the 
growing challenges facing our oceans, to reverse declines in 
ocean ecosystems and to provide special ocean places for us and 
for future generations to enjoy.
    We have seen some successes along the California coast, in 
the Florida Keys and in the Northwestern Hawaiian Islands. 
While each sanctuary has a unique story, they all share some 
key elements, including well-developed community support, 
public education and outreach, science, and a real commitment 
to protect marine resources in a comprehensive way.
    They also reflect strong Federal leadership and close 
collaboration with states and other partners. We are very 
pleased with the bill you have introduced. We believe it is a 
thoughtful, balanced bill and goes a long way toward addressing 
the priority issues that we identified when this Committee met 
in Santa Barbara.
    We believe the limited and targeted classifications and 
improvements that you have included will greatly improve the 
nation's ability to achieve its critical mandate. There are six 
components that we are especially pleased to see included.
    First, the bill significantly strengthens the core purpose 
of the sanctuary system making clear that the primary purpose 
is long-term protection and conservation of ocean resources, 
and it creates a strong and clear mission for the system that 
echoes this purpose.
    Second, it recognizes the value of protected areas in the 
ocean for replenishment and for resilience and encourages the 
use of zoning within sanctuaries, including the potential 
designation of marine reserves and other highly protected 
areas.
    Third, the moratorium on new sanctuaries would be removed.
    Fourth, the bill would create a process to identify and 
prioritize potential new areas for inclusion in the system and 
would set an ambitious expansion goal to include a full range 
of our ocean's special and representative places by the year 
2030.
    Fifth, the bill would improve the process for developing 
fishing regulations in conjunction with fishery management 
councils in a consultative process. Last, the bill would 
provide an adequate budget to accomplish these objectives. No 
matter what we say or do here, adequate budget is critically 
important to the success of the program.
    We have a few minor concerns with some specific language 
that is detailed in our written comments, and we look forward 
to working with you on making further improvements to address 
these. So in closing I want to reiterate Ocean Conservancy's 
commitment to working with you, and thank you, again, for 
showing your dedication and leadership in moving this important 
effort forward. Thank you.
    Ms. Bordallo. Thank you, Ms. Spruill, for your 
recommendations concerning H.R. 6537.
    [The prepared statement of Ms. Spruill follows:]

            Statement of Vikki Spruill, President and CEO, 
                           Ocean Conservancy

INTRODUCTION
    Good morning Madam Chairwoman and Members of the Subcommittee, I am 
Vikki Spruill, President and CEO at Ocean Conservancy, the country's 
oldest and largest ocean non-profit harnessing over 35 years of policy 
and scientific expertise to anticipate ecological threats and deliver 
sustainable solutions that protect our ocean and improve our quality of 
life. I'd like to thank Chairwoman Bordallo for her leadership on the 
issue of ocean conservation and for moving the critical reauthorization 
of the National Marine Sanctuary Act forward with the introduction of 
the H.R. 6537, the Sanctuary Enhancement Act of 2008. My testimony 
today will focus on this bill and I will leave the discussion of the 
Thunder Bay Underwater Preserve Boundary Modification Act, H.R. 6204, 
to other panelists with greater relevant expertise on it.
    As is probably true for many of us here, the ocean has been a 
constant throughout my life. I was fortunate to grow up along the 
panhandle of Florida, with its sugar-sand beaches and emerald waters 
that attract countless tourists each year. And, I went to school in New 
Orleans, not far from the Gulf of Mexico where oilrigs dot coastal 
waters and refineries light the night. For over a decade, I have been 
closely involved in ocean conservation and I am constantly reminded of 
the extraordinary vision, wisdom, and, in many cases, courage it takes 
to conserve our majestic ocean places. I am honored to represent the 
half a million ocean conservancy members and volunteers from across the 
country and thank you for this opportunity.
    It seems, at every turn, we are reminded of the critical role that 
the ocean serves as Earth's life support system. The ocean covers 2/3 
of the planet and provides much of the air we breathe, the food we 
need, and moderates the climate that sustains us. Yet, most take it for 
granted. So it falls to us to be the stewards of the ocean to put in 
place the kinds of policies that will conserve and protect the ocean. 
That is what brings us together today.
    While I am here representing the conservation community, there is 
also a sea change afoot throughout our culture, particularly in the 
business community. In recent years, we have seen the emergence of a 
new ``ocean ethic'' in which American businesses are starting to 
recognize the comprehensive value of the ocean, rather than as a 
collection of discrete resources to be extracted. I, too, had a lengthy 
career in the private sector and I related to the stories from the 
businesswomen and men who testified in favor of National Marine 
Sanctuary Reauthorization before this committee in June. They told 
personal stories about the positive impact sanctuaries had on their 
businesses and their communities. Even though it is not the focus of 
today's hearing, I must say that I hope this ocean ethic prevails as 
the Congress debates whether to lift the moratorium on offshore 
drilling, even though doing so would do nothing to lower today's gas 
prices and there are cheaper, faster, safer ways to solve our energy 
crisis.
    The National Marine Sanctuaries Act (NMSA) is one of the 
cornerstones of the conservation work we do. Is it perfect? Certainly 
not! Is it a critical instrument in our conservation toolbox that 
allows us to create a healthier, more resilient ocean? Absolutely! 
Therefore, it is our duty to make the National Marine Sanctuaries Act 
the strongest law it can possibly be, because the ocean is in trouble. 
Given the existing and growing threats to ocean ecosystems, we need a 
strong and robust National Marine Sanctuary System now more than ever.
    Today there is widespread scientific recognition that multiple 
stressors including overfishing, pollution, poor land use practices, 
and habitat modification have been degrading marine ecosystems for 
decades, if not centuries, and are now pushing them beyond the breaking 
point. Superimposed on these multiple stressors and exacerbating their 
impacts, global climate change is increasingly affecting marine 
ecosystems and degrading them further. The good news is that there are 
practical steps we can take to turn the tide and restore our oceans and 
make them more resilient to these threats. There is increasing evidence 
that MPAs, especially marine reserves and other highly-protected ones, 
can help protect and restore ecosystems, maintain ecological integrity, 
increase ecosystem resilience, and provide an important hedge against 
global climate change and other stressors. Some of this new evidence is 
for the first time coming from within our National Marine Sanctuary 
System, as a result of the marine reserve networks that have been set 
up in the Florida Keys and California. In spite of the many challenges 
it faces, our existing Sanctuary System is already contributing to 
ocean health and resilience. The new and ambitious marine reserve 
network recently implemented to help protect the Great Barrier Reef 
from global climate change and other threats is also already showing 
positive results.
    Today, I believe, you have a watershed opportunity to clarify, 
strengthen, and reauthorize the National Marine Sanctuaries Act. This 
reauthorization gives us an unprecedented opportunity to build on the 
Act's successes and ensure that it achieves its broader mandate--and we 
speak for many when we thank you for moving forward today. By far, one 
of the most comprehensive ways to achieve our goal of a healthy ocean 
is through a sound National Marine Sanctuary System. We urge you to 
make this happen by expediting approval of the strong reauthorization 
bill that has been introduced, with some minor modifications.
SUMMARY OF OCEAN CONSERVANCY VIEWS ON H.R. 6537
    We are very pleased with the bill you have introduced. We believe 
it is thoughtful, balanced, and would go a long way toward addressing 
the priority issues that Ocean Conservancy Executive Vice President, 
Dr. Dennis Takahashi-Kelso, and others identified when this 
subcommittee met in Santa Barbara last November. We believe the 
limited, key, and targeted clarifications and improvements that you 
have included will greatly improve the National Marine Sanctuary 
System's ability to fulfill its critical mandate. We are especially 
supportive of and pleased to see that you have included language that 
will help to:
    1.  Update the National Marine Sanctuary System's Findings Based on 
New Science: The Clarification of Findings, Purposes, and Policies in 
section three would greatly clarify, improve, and strengthen the NMSA. 
The finding in the new section 301(a)(3) of the Act would recognize 
recent scientific advances in delineating ocean boundaries and 
ecosystems that will help pave the way for inventorying U.S. marine 
ecosystems and developing a more complete, robust and representative 
Sanctuary System. New finding 301(a)(4) would similarly recognize the 
large and growing body of scientific evidence confirming the value of 
marine reserves and other highly-protected areas for restoring living 
marine resources; maintaining natural ecosystem resistance and 
resilience to multiple anthropogenic threats, now including and 
exacerbated by the growing threat of global climate change; and 
providing the potential to supply eggs and larvae to replenish 
populations within and adjacent to the marine protected areas.
    2.  Clarify and Strengthen the NMSA's Purposes and Policies: 
Section three of the bill would also help clarify and strengthen the 
NMSA's Purposes and Policies by making several key changes to section 
301(b) of the Act. The new paragraph (2) makes clear that the 
overarching priority of the System is the long-term protection and 
conservation of nationally significant marine ecosystems and their 
living and non-living resources, thus removing misconceptions about the 
core purpose of the Sanctuary System. New paragraph (3) would make it a 
purpose of the System to include within the NMSS the full range of 
marine biological diversity and ecosystems, setting the stage to expand 
the system and make it more representative. New paragraph (8) retains, 
clarifies, and improves language allowing for the regulated public and 
private uses of the System's resources to the extent that such uses are 
compatible and not prohibited by this statute or other authorities. 
Ocean Conservancy supports these changes to clarify and strengthen the 
NMSA's purposes and policies.
    3.  Encourage the Use of Zoning within Sanctuaries, including the 
Potential Use of Marine Reserves, Other Highly-protected Areas and 
other Spatial and Temporal Management Tools: We are very pleased that 
H.R. 6537 includes strong language to encourage the use of temporal and 
spatial zoning, among other innovative management techniques (section 
3(b)). The proposed new section 301(b)(10) of the Act,, especially when 
used together with other language in the bill referring to the 
``purposes and policies'' of the Act, could go a long way toward 
implementing zoning and marine reserves where they are needed. We 
strongly support this language with some fine-tuning, and recommend 
including parallel language within the ``Procedures for Designation and 
Implementation'' (16 U.S.C. 1431 Sec. 304) that would more specifically 
and directly require the consideration of these tools. Requiring such 
consideration would help ensure that the best available science-based 
management tools to achieve comprehensive resource protection are 
available to resource managers and that they are evaluated during the 
development, review, and revision of sanctuary management plans and 
regulations, but it would not mandate their use. There is a precedent 
for such language contained in the Florida Keys National Marine 
Sanctuary and Protection Act of 1990, which successfully led to the 
development of the Florida Keys NMS initial zoning plan and the 
subsequent Tortugas Ecological Reserve.
    4.  Recognize the Office of National Marine Sanctuaries (ONMS) and 
Provide a Clear and Unambiguous Mission: Earlier this year, the 
National Marine Sanctuary Program was administratively elevated to 
become the Office of National Marine Sanctuaries. Language contained in 
H.R. 6537 section 4 would recognize this elevation in statute and also 
provide the NMSS with a strong, clear, and unambiguous mission, 
consistent with the stated and long-standing priority and purpose of 
the NMSA, to protect nationally-significant marine ecosystems. Ocean 
Conservancy is very supportive of the elevation to office level, and 
eventually higher, and of the proposed NMSS mission which would greatly 
improve the System's probability for success by providing a strong, 
clear and explicit mission for the NMSS.
    5.  Create a Process for Identifying Waters to be included in the 
National Marine Sanctuary System and Set a Goal for Expansion and 
Representativeness: Ocean Conservancy supports and appreciates the 
inclusion of H.R. 6537's section 6, ``Living and Nonliving Resource 
Classification, Identification, and Inventory.'' This new section would 
help to expand the Sanctuary System, ensure that each of the 
biogeographical provinces in U.S. waters is well-represented, and 
include areas that protect rare, critical, unique, outstanding, or 
otherwise special resources. The ultimate, anticipated, and highly-
desirable goal of this process would be to provide a rational framework 
for identifying, prioritizing, and developing new sanctuary sites. We 
further support the language included in section 6 that calls for a new 
Site Evaluation List and sets a system expansion and representativeness 
goal to be achieved by 2030. Achieving this goal will clearly require 
adequate budgetary and human resources for the Office of National 
Marine Sanctuaries.
    6.  Remove the Moratorium on New Sanctuaries. Ocean Conservancy 
supports and appreciates the language in H.R. 6537 in section 7 repeal 
the limitation on designation of new National Marine Sanctuaries, which 
is currently contained section 304(f) (16U.S.C. Sec. 1434(f)). This 
moratorium was originally purported to be temporary in nature and a 
means to prioritize making existing, recently added, sanctuaries 
functional before adding additional new sites. Regardless of its 
initial intent, the moratorium has clearly outlived its proposed 
purpose and now constitutes a severe impediment to the rational 
development of an effective National Marine Sanctuary System. Despite 
the moratorium, the continued demand for marine protected areas has 
persisted and may force a greater reliance on the use of Marine 
National Monuments and Congressionally-designated National Marine 
Sanctuaries. Regardless, the time to lift the moratorium is now.
    7.  Improve the Process for Development of Sanctuary Fishing 
Regulations: Ocean Conservancy supports and appreciates the language 
contained in sections 7 and 10 of H.R. 6537. related to developing 
sanctuary fishing regulations. This language preserves the important 
role of fishery management councils in assisting the Office of National 
Marine Sanctuaries with the development of sanctuary fishing 
regulations, but clarifies the process, provides criteria and 
timelines, and ensures that resulting fishing regulations will be 
consistent with the NMSS's and the individual sanctuaries' purposes and 
policies. We are concerned that there may still be some ambiguity in 
the process, particularly with respect to the process the councils must 
employ to develop the regulations, and would be happy to work with you 
to make sure the bill will achieve its intended purpose.
    8.  Provide an adequate budget to accomplish these objectives: 
Ocean Conservancy strongly supports the increased authorization levels 
contained in H.R. 6537, and greatly appreciates your recognition of the 
critical importance of the Sanctuaries Act and Program.. In our 
November 3, 2007 testimony before the Subcommittee in Santa Barbara, we 
suggested that a budget on the order of $100 million was appropriate 
for the NMSS, and H.R. 6537 would authorize appropriations at roughly 
that level. We continue to believe that this level is well-justified, 
would provide for a reasonable and manageable rate of growth, and still 
be an order of magnitude below comparable authorization levels for 
terrestrial protected area programs, such as those managed by the U.S. 
National Park Service. In fact, an increased level could well be 
needed, given the increased responsibilities of the program and the 
expansion goal contained in this bill. In particular, the increased 
authorization level of $10 million annually specifically to implement 
the new section 303(c) (the bill authorizes $5 million) would help 
ensure a comprehensive resources classification and inventory, and a 
site selection list that represents the full range of marine ecosystems 
and results in an expanded System.
CONCLUSION:
    H.R. 6537 provides a strong framework for reauthorization of the 
National Marine Sanctuaries Act and addresses some key shortcomings in 
the existing law. We look forward to working with you on making further 
improvements to this bill and addressing any remaining concerns. There 
have been calls for more far-reaching changes to the NMSA which may 
warrant further consideration, but your approach goes a long way toward 
clarifying and improving the NMSA and addressing its most critical and 
urgent needs.
    In closing, I want to reiterate Ocean Conservancy's commitment to 
working with you and thank you again for showing your dedication by 
holding this important hearing.
    Thank you.
                                 ______
                                 
    Ms. Bordallo. Mr. Gudes, welcome back to the Subcommittee, 
although today you are wearing a different hat from years past. 
I think you were with NOAA for quite a number of years, so we 
are looking forward to your testimony. Please begin.

    STATEMENT OF SCOTT B. GUDES, VICE PRESIDENT, GOVERNMENT 
      RELATIONS, NATIONAL MARINE MANUFACTURERS ASSOCIATION

    Mr. Gudes. Thank you, Chairwoman Bordallo, Ranking Member 
Brown, Representative Capps, Representative Saxton, staff of 
the Committee. Let me first thank you for your focus on NOAA, 
the Marine Sanctuary Program. This program, marine sanctuaries, 
has helped focus public's attention on our oceans and coasts 
and I think the analogy is often made that it is the National 
Park Service, National Park System of the Oceans, if you will.
    The Marine Sanctuary Program has clearly benefitted from 
great leadership over the years from the late Dr. Nancy Foster 
to Jack Dunnigan and Dan Basta today, and the program has 
greatly benefitted from dedicated staff, the support of 
hundreds of volunteers and of course the invaluable leadership 
and assistance of Lori Aguies and the Marine Sanctuary 
Foundation.
    As you know, I am pleased to be here today to represent the 
National Marine Manufacturers Association, America's 
recreational boat industry. We have some 1,700 members across 
the country representing 80 percent of marine products made in 
the United States.
    I want to note at the outset that manufacturing of 
recreational boats takes place primarily in the United States, 
that it is done by American workers, and that, frankly, this is 
an industry that has not been exported to other countries, and 
that generally our members are small businesses, family owned 
small businesses, with about 100 to 300 workers making boats.
    There are currently 18 million recreational boats in the 
United States. Ninety-five percent of motorized boats are 26 
feet or less. Seventy-five percent of boating households earn 
less than $100,000 per year. We know through survey data that 
over half of all recreational boats are used for sport fishing.
    Given the location of NOAA's marine sanctuaries, it should 
not be surprising that boating in all its aspects, sailing, 
fishing, cruising, water sports, occurs within sanctuary 
boundaries. If you think about it just a bit, most of the 
activities in a marine sanctuary, actually experiencing the 
sanctuary requires a boat.
    Other than people who go in from the shoreline or are in 
large research vessels, probably every boat in a marine 
sanctuary is made by my membership in the United States. 
Boating is about recreation, about quality of life, about jobs, 
economic significance, and marine sanctuaries cover a lot of 
our coastal waters and they are very important to our industry.
    In my written testimony, there are some numbers showing the 
economic significance of boating in just two of the areas, and 
I think those are actually low estimates. My key overall point 
today is that access and protecting Americans rights to boat 
and fish is a huge issue for our industry and for boaters 
across the country.
    Maintaining access to waters and use within marine 
sanctuary boundaries is an overriding objective and concern 
with any reauthorization, whether it is Executive Branch, 
Agency action or congressional action. As my written testimony 
points out, we applaud your effort to enhance and reauthorize 
the Marine Sanctuaries Program; however, in our case, we do 
have some concerns about H.R. 6537 as presently drafted.
    First, the sanctuary program needs to be balanced and 
recognize not only long-term protection and conservation but 
also long-term protection and conservation of recreation, of 
enjoyment and use by people, by citizens, by your constituents.
    We strongly recommend that the mission statement in the 
sanctuary program and your bill in Section 4 be amended as 
drafted to include living resources, that living resources also 
mean people and the use of sanctuaries. That is true in the 
National Park Service and the National Park System, for 
example. There is a strong emphasis on use by people.
    Indeed, H.R. 6537 rewrites the current marine sanctuary 
statute to eliminate the program's mission of facilitating all 
public and private compatible uses in sanctuaries, and we would 
hope that that would be restored. We should be encouraging 
boating and angling recreation in sanctuaries.
    Both have the ability to inspire kids, and, in fact, I 
would recommend, and I think probably a number of people would 
share, that education also be part of the mission and function 
of the sanctuaries. Second, the scope of the bill is very broad 
and far reaching. One of the changes is that it gives sanctuary 
managers the ability to manage resources outside the sanctuary 
boundaries.
    I suppose this relates to energy development. We were just 
talking about OCS drilling. It probably relates to land use 
development. Maybe, for example, the creation of marinas and 
boat ramps outside a sanctuary. I would just suggest this is 
pretty far reaching authority.
    In fisheries management, and this was addressed in part by 
the Congresswoman's comments, the bill appears to make 
significant changes in law to fisheries management that would 
no doubt affect recreational fishing. What this bill language 
does in your draft, I must admit, is not exactly clear to me, 
but it appears to be empowering and resourcing the sanctuary 
program and the Ocean Service to be in the fisheries management 
business.
    I am pretty much out of time, but I would simply say that 
NOAA fisheries has something like 3,000 personnel, $830 million 
budget. Marine sanctuaries has $60 something million and about 
170 Federal employees. I don't know if this Committee is 
contemplating it, but it would require a huge change in 
capacity building for the Marine Sanctuary Program to put that 
program in the fisheries management business.
    From our industry's standpoint, we think the Magnuson-
Stevens bill and all the work that this very Subcommittee and 
this Committee has done makes a lot of sense. We are really not 
fond of changing the fisheries management program to reflect 
those sort of changes.
    I would just say from my experience at NOAA, all fisheries 
management ends up being litigated. It is one of the nature's 
of fisheries management. One should fully think about all of 
the ramifications that that would result in if you were to 
empower the Marine Sanctuary Program basically to be in the 
fisheries management business within each of the sanctuaries. I 
am out of time. Thank you.
    Ms. Bordallo. I thank you, Mr. Gudes, and I thank you for 
your excellent testimony and insights regarding the many 
contributions of the recreational boating community in building 
regional and local support for the sanctuary system.
    [The prepared statement of Mr. Gudes follows:]

 Statement of Scott B. Gudes, Vice President of Government Relations, 
               National Marine Manufacturers Association

    Good morning Chairwoman Bordallo, Ranking Member Brown and Members 
of the Subcommittee. Thank you for the opportunity to testify this 
morning on H.R. 6537, the ``Sanctuary Enhancement Act of 2008.''
    I am pleased to be here today representing the National Marine 
Manufacturers Association (NMMA). NMMA is the nation's leading 
recreational marine industry trade association, representing nearly 
1,700 boat builders, engine manufacturers and marine accessory 
manufacturers who collectively produce more than 80 percent of all 
recreational marine products made in the United States. The association 
is dedicated to industry growth through programs in public policy, 
market research and data, product quality assurance, marketing 
communications and the promotion of sound environmental stewardship 
among its consumers.
    As the former Deputy Under Secretary for Oceans and Atmosphere for 
the National Oceanic and Atmospheric Administration (NOAA) from 1998-
2003 and subsequently the Acting NOAA Administrator for most of 2001, I 
am familiar with the National Marine Sanctuaries Program (NMSP) and 
appreciate the leadership that this Committee, both its members and 
professional staff, have shown for that program as well as all of the 
marine, ocean and coastal programs at the Agency. While at NOAA it was 
my honor to work with over 12,000 great professionals and NOAA's many 
partners in state and local government, universities, joint institutes 
and grant recipient institutions as well as volunteers at Marine 
Sanctuaries.
    In my new role representing America's historic recreational marine 
industry, which is comprised of nearly 19,000 great American companies 
employing more than 154,000 U.S. workers, I represent members who are 
deeply interested in marine environmental protection as well as robust 
policies that protect and ensure the public's right to access the 
nation's natural resources which are held in their trust.
Boating's Impact and the Importance of Access
    The recreational boating community is an important stakeholder in 
any national process to enhance marine resource protection. Boating has 
deep historical roots in outdoor recreation in America and 
participation has been steadily trending upwards. In 2007, nearly 26 
percent of all adults went boating at least once, which means that 59 
million American adults were out on the water spending time with their 
family and friends and enjoying our natural resources, fishing, 
cruising and just being outdoors. As I will point out later in my 
statement, a lot of boating goes on in and around our National Marine 
Sanctuaries. In fact, except for individuals who enter the water from 
shore or who are aboard larger vessels, it is safe to say that almost 
all visitors to these sites are on a boat built by a member of the 
National Marine Manufacturers Association.
    There are nearly 18 million recreational boats currently in 
operation in the United States. These boat owners power an important 
American manufacturing sector that contributed $37.5 billion in new 
sales and services during 2007 alone. Overall, the direct and indirect 
economic impact nationwide from recreational boating totals 
approximately $85.1 billion annually and supports more than 330,000 
U.S. jobs. I might also note that recreational boat manufacturing is a 
sector of the economy that is largely carried out by small businesses 
and manufacturing that occurs here in the USA.
    The Members of the Subcommittee might be interested to know that 
the vast majority of recreational boats sold are small are inexpensive 
pleasure craft used occasionally, and 75 percent of current boat owners 
have an average household of less than $100,000 per year. Of the 
recreational boat population in the U.S., 95 percent of registered 
mechanically-propelled boats are less than 26 feet in length. The 
average price of a new boat in 2007 was under $14,000, and boat owners 
spent an average of 32 days (or 16 total weekends) on the water.
    Recreational boating and angling are closely tied, and we are 
frequently engaged in important fisheries concerns. Of current boat 
owners, we know that 65 percent used their boat in 2005 to go fishing. 
Indeed, many boats are designed and purchased specifically for the 
purpose of sportfishing, a $40 billion industry for which NOAA has 
developed a five-year strategic plan designed to ``provide recreational 
fishing opportunities by ensuring sustainable fisheries resources, 
understandable regulations, and reasonable public access.'' In this 
plan, NOAA explicitly acknowledges that maintaining public access, 
which is essential to both sportfishing and boating, is a key part of 
its mission, and, in fact, such activities are usually included in 
assessing the economic benefits from sanctuaries.
    Although more Americans went boating in 2007 than in 2006, our 
industry is certainly feeling the turbulence in consumer confidence, 
finance, and energy costs that is facing our economy. Other than 
inflatable boats, jet boats and personal watercraft, all segments in 
the recreational marine industry showed a decline in unit sales this 
year. Also in 2007, the typically robust aftermarket accessory market 
decreased with sales down an estimated 5 percent, reflecting an overall 
weakness in our industry. These declines have caused many of our 
manufacturers around the country to furlough plants or close them 
altogether, resulting in job losses.
    While we are optimistic about the future and we believe the 
fundamentals our business and the American economy are strong, I 
emphasize these numbers to demonstrate why we must be vigilant in the 
maintaining a vibrant consumer base and keep recreational opportunities 
for American boaters and anglers widespread and available.
National Marine Sanctuaries are Important for Boating and Outdoor 
        Recreation
    Given the location of the current sanctuary system in coastal 
communities in areas like the Florida Keys, and the Southern and 
Central Californian coasts, it should not be surprising that boating in 
all its aspects, such as recreational fishing, sailing, and water 
sports, occurs within sanctuary boundaries. Sanctuaries, like the 
National Parks they are so often compared with, provide for the multi-
use of resources, working to conserve resources but also providing for 
outdoor recreational opportunities. Sanctuaries are living classrooms, 
where constituencies are built by the very recreational boaters, 
anglers, divers, and other responsible users of the resources.
    In the area around the Florida Keys National Marine Sanctuary, for 
example, there are some 37,000 registered boats and more than 272 
recreational boating businesses. Our data shows that each year, during 
the 861,000 total days people spent boating in this area, some $140 
million is spent on boat related products and services and an 
additional $92 million on boating trips, generating nearly 3,800 local 
jobs.
    Similarly, in the area around the Channel Islands National Marine 
Sanctuary there are some 17,000 registered recreational boats and over 
83 recreational boating businesses. Boaters here spent 318,000 total 
days out on the water, spending $65 million on boat related products 
and services and boating trips. We estimate that almost 1,100 jobs are 
directly related to boating and fishing in this area alone.
Sanctuary Reauthorization Should Better Consider Value of Recreation to 
        System Purposes & Objectives
    Madam Chairman and Members of the Subcommittee, we applaud you for 
your efforts to enhance the National Marine Sanctuary Program. For 
boating consumers, recreational anglers and the marine manufacturers 
who build the products they purchase, the health of America's marine 
resources is of vital importance. We recognize the special national 
significance of currently designated National Marine Sanctuaries and we 
appreciate your legislative efforts to reauthorize and strengthen the 
Program.
    We are, however, increasingly concerned that public access to our 
nation's oceans and aquatic resources is becoming unduly restricted in 
place of policies that promote sound conservation and responsible 
recreation. Increasingly we are seeing states from California to South 
Carolina moving to restrict water access, and we are hearing reports in 
major national news outlets that large swaths of new protected areas 
may be designated by The President through Executive Order--with the 
mere stroke of a pen--without the stakeholder processes, without 
involving citizens, and without using science-based decision-making 
that has, in the main, served as the guiding principles for those 
protected areas in the National Marine Sanctuaries Program. We believe 
this trend is worrisome and not consistent with longstanding American 
policy that promotes sustainable outdoor recreation.
    To be sure, NMMA does not oppose the designation of marine 
protected areas in the event of significant ecological concerns for 
which the prevailing scientific evidence--which is peer reviewed and 
methodologically robust--demonstrates that such a designation is 
necessary to protect resources. But, we encourage Congress and federal 
agencies to recognize that it is a longstanding policy of the federal 
government to allow public access to public lands and waters for 
recreational purposes consistent with sound conservation. This policy 
is reflected in the principles of our wildlife refuges, national 
forests, national parks, and wilderness areas. We believe this policy 
should pertain to NOAA and National Marine Sanctuaries as well 
reflected in any final reauthorization bill for a strengthened National 
Marine Sanctuaries Program.
    Indeed, throughout the legislative history of the National Marine 
Sanctuaries Act, Congress has clearly and consistently demonstrated 
that it favors a management approach that balances preservation of the 
resource with allowing compatible human uses, such as recreational 
boating and angling. In the most recent reauthorization of the 
Magnuson-Stevens Act, too, Congress reiterated its desire to maintain 
robust access to our ocean resources to recreational anglers and 
directed federal regulators to utilize no-take marine reserves only as 
a resource management tool of last resort. Some have argued that the 
reliance on the multiple use doctrine has made the National Marine 
Sanctuaries Program less effective than it could be. We strongly 
disagree. In fact, the Program has had many significant accomplishments 
and has been instrumental in protecting key marine sites and educating 
the public about the importance of these areas and of the importance of 
sound environmental stewardship more generally.
    Under current law, NOAA and the National Marine Sanctuary Program 
have an obligation, stated explicitly, to strive toward a management 
approach that balances resource protection with the rights of boaters, 
anglers and other user groups who are entitled to access the public 
aquatic treasures that are held in the their trust. A reasonable 
expectation of access is currently required under the law. Certainly 
this is what Congress intended when it passed the Act and in each case 
when it reauthorized the Act--a comprehensive system of managing key 
ocean resources that emphasized balance and not prohibition. We believe 
this tradition should be followed and even strengthened in this 
reauthorization round because maintaining public access is good for the 
resource--it motivates sustainable practice by those who value the 
resources most, and it helps to maintain a cooperative, non-adversarial 
relationship between regulators and the regulated community, enhancing 
opportunities for mutually beneficial partnerships that improve 
resource protection. For example, my colleagues at the Personal 
Watercraft Industry Association (PWIA), an affiliate of NMMA, are 
currently working with the Florida Keys National Marine Sanctuaries to 
develop a program in which personal watercraft are used by volunteers 
to educate visitors on the sanctuaries resources. We look forward to 
the implementation of what we believe is an exciting opportunity for 
our industry and FKNMS.
    Unfortunately, Madam Chairman, nowhere does H.R. 6537 endorse the 
importance of recreation as policy or purpose of the National Marine 
Sanctuaries Program. Indeed, it appears that the bill would deemphasize 
and downgrade longstanding Congressional intent and NOAA policy by 
amending the policies and purposes of the Act to require that the 
``primary purpose'' of the NMSP be the ``long-term protection and 
conservation of the living and nonliving resources of the System.'' 
Undoubtedly, the long-term protection of the resource is essential, but 
the bill goes further and would strike existing statutory language in 
Sec. 301(b)(6) of the Act directing NOAA to ``facilitate to the extent 
compatible with the primary objective of resource protection, all 
public and private uses of the resources.'' This revision to the Act 
runs counter to the notion that--while resource protection is the 
primary objective of the Act--recreational opportunities should be 
encouraged and, indeed, are a key part of the individual sanctuary 
programs particularly with respect to outreach and education.
    We would strongly recommend that the bill be revised to recognize 
specifically recreation as an important purpose and objective, to 
retain and even expand on the Act's current language that directs the 
sanctuary managers to engage the public and promote recreational 
opportunities. To be clear, the current NMSP mission in Section 4 of 
the Committee bill should be amended to include people. I respectfully 
suggest that the mission statement should include balance by firmly 
stating that public access, recreation and enjoyment (to use a term in 
the National Park Service charter) are also important missions of the 
system. I also recommend that ``education'' of the public and youth 
should be explicitly listed in the mission statement.
Expansion Goal Raises Concerns
    Given trend lines we have seen with respect to new marine protected 
areas being established in premier recreational boating and sport 
fishing sites in the U.S., the amorphous and ambiguous legislative 
requirement in H.R. 6537 that the Secretary of Commerce ``strive to 
achieve the goal of including in the System by 2030 that number of 
sites that will incorporate a full range of the Nation's marine eco 
regions [which the bill defines as a `large area of the marine 
environment']'' concerns us. We believe that sound science--rather than 
simple geography--and the specific needs of a resource should be 
determining factors in the designation of a marine protected area. It 
makes no sense to simply designate large marine sites for the purpose 
of being in the System, something which could have significant 
unintended consequences.
    Indeed, a review of the National Marine Sanctuaries Act 
demonstrates that Congress harbored concerns that the National Marine 
Sanctuaries Program would overreach in designating new sanctuaries. 
Section 303(b)(1) lists the factors that the Secretary of Commerce must 
consider when determine if an area should be designated a sanctuary 
such as ``the manageability of the area, including such factors as its 
size, its ability to be identified as a discrete ecological unit with 
definable boundaries, its accessibility, and its suitability for 
monitoring and enforcement activities.'' We are pleased that H.R. 6537 
does not alter these requirements. The National Marine Sanctuaries 
Program currently has broad discretionary authority to initiate a 
designation process--complete with robust public participation 
requirements--for new sanctuaries. Rather than adding undue resource 
constraints by requiring new sanctuaries, we believe the Agency should 
continue to work to improve the current system of sanctuaries.
    Additionally, Madam Chair, NMMA is concerned that Sec. 12(h) (A) of 
the bill greatly expands the authorities of the National Marine 
Sanctuaries Program. While we applaud efforts to increase coordination 
among federal agencies, it is important to not give sanctuary managers 
authority over resources that are not within the sanctuary boundaries. 
As written, it appears that the bill would extend the scope of the Act 
to ``Federal agency actions within or outside of a national marine 
sanctuary or marine national monument.'' All that would be required is 
a determination--apparently by a sanctuary manager--that an activity is 
likely to harm a system resource. This language is vague, expansive, 
and we would urge its removal from the bill.
Fisheries Management Should Remain Led by NOAA Fisheries Working in 
        Concert with Regional Fishery Management Councils
    While they can be valuable, marine protected areas--and 
particularly no-take marine reserves--are not a panacea for fisheries 
management. Indeed, we are concerned with language in the ``Findings'' 
section of the bill affirming that science has proven the value of 
marine protected areas. As with many issues before the scientific 
community, the value of marine protected areas has been much debated. 
While there may be scientific studies that show the benefit of marine 
protected areas, there are also scientific studies that show that 
marine protected areas do not provide significant benefit beyond 
traditional fishery management measures. While marine protected areas 
may serve a purpose within the context of ocean resource management, it 
may be premature for Congress to affirm with absolute certainty the 
value of such areas. In any case, the use of marine protected areas as 
a management tool may have significant impacts on the regulated 
community, and MPAs should be pursued only with the proper view on 
their potential short- and long-term socioeconomic implications.
    At present, as the Committee is well aware, the Magnuson-Stevens 
Fishery Conservation and Management Act is the prevailing federal 
authority and structure for the management of the nation's ocean and 
coastal fisheries. The Congress just recently reauthorized this law and 
provided new requirements to conserve resources and prevent 
overfishing. Under the Act, regional fishery management councils which 
contain stakeholders nominated by Governors and appointed by the 
Secretary of Commerce (Administrator of NOAA) regulate and supported by 
the full scientific and management expertise at NOAA--has 
responsibility for the sustainable management of fisheries in federal 
waters. And as part of their management authority, councils may, and 
are, utilizing MPAs. The authority of the regional management councils 
should be recognized, and yet H.R. 6537 appears to shift authority away 
from them.
    It has been my experience from my years as a professional staffer 
in the U.S. Senate and an official at NOAA that the Fisheries 
Management Councils are indeed unique among Federal regulatory 
entities. They involve the Federal Government, the States, the industry 
and outside groups in the management of marine resources. But, at the 
end of the day, few outside entities better bring together large number 
of disparate stakeholders in the management of the resource.
    We do not believe that the revisions in Sec. 7 of the Sanctuary 
Enhancement Act are necessary or advisable. Fishery Management Councils 
currently have the opportunity to prepare draft fishing regulations in 
a National Marine Sanctuary, or it may determine that such regulations 
are not necessary. If the Council deems it necessary to regulate 
fishing within a sanctuary, it is obligated to use as guidance the 
National Standards of Sec. 301(a) of the Magnuson-Stevens Act. The 
point is that the operative statute for fishing regulations within a 
sanctuary is MSA, and under present law the Secretary of Commerce has 
broad authority to accept or reject the Council's determination and 
regulate fishing within a sanctuary
    Our reading of the Committee bill is that it would significantly 
change Federal fisheries management large sections of the U.S. 
Exclusive Economic Zone:
    <bullet>  First, it removes Fishery Management Councils from the 
initial decision-making process regarding whether to regulate fishing 
in the sanctuary, giving the Secretary of Commerce the authority to 
unilaterally determine whether to regulate fishing.
    <bullet>  Second, H.R. 6537 empowers the Secretary to make such a 
determination for new, existing, or proposed sanctuaries--this 
authority would contravene the existing process of updating management 
plans which provide opportunities for the public to weigh in and 
support or oppose changing a sanctuary designation document to include 
the authority to regulate fishing.
    <bullet>  Third, existing language in the Act explicitly requires 
in the statute using the National Standards of MSA in the development 
of any fishing regulations within the sanctuary. H.R. 6537 does not 
appear to have such a requirement.
    <bullet>  Fourth, we believe the proposed changes in H.R. 6537 are 
unnecessary and set NOAA Fisheries/NMFS and NOAA's sanctuary program up 
for conflict, rather than cooperation. We understand that NOAA is 
finalizing a Policy Document regarding its regulation of fishing in 
National Marine Sanctuaries that demonstrates the Agency's work and 
commitment to improved coordination and collaboration between programs. 
We see no need for legislative changes on this matter at this time and 
urge the Subcommittee to let this internal agency process play out.
    I would note that NOAA Fisheries has over 3,000 employees and a 
budget of $829 million in FY 2008 and $782 in the President's FY 2009 
budget request. The marine sanctuaries program, by contrast, has a 
budget of $64 million ($50 million in the President's FY 2009 budget) 
to do all its missions and 169 full time employees. To take on this 
level of fishery resource management responsibly would require a lot of 
capacity building in sanctuaries. It would take the addition of many 
staff. I would respectfully suggest that the program has many other 
unfulfilled requirements in education, in research, in facilities, and 
in vessels and maintenance.
    For these reasons, we believe Sec. 7 of the SEA Act is a 
significant departure from the status quo with unpredictable 
consequences and would strongly encourage you to reconsider the 
inclusion of this language in the bill.
    Madam Chairman and Members of the Subcommittee, thank you for the 
opportunity to testify before you today on behalf of the National 
Marine Manufacturers Association and the recreational marine industry. 
We look forward to continuing to work with you on this legislation and 
other important legislation, and I would be pleased to respond to any 
questions you may have.
                                 ______
                                 
    Ms. Bordallo. I would like to now invite Mr. Sullivan to 
testify.

 STATEMENT OF TIMOTHY J. SULLIVAN, EXECUTIVE DIRECTOR AND CEO, 
                      THE MARINERS' MUSEUM

    Mr. Sullivan. Good morning, Madam Chair and members of the 
Committee. My name is Tim Sullivan, I am President of the 
Mariners' Museum in Newport News, Virginia, and President 
Emeritus of the College of William and Mary. I have worked 
closely with the National Marine Sanctuary Program during my 
tenure as museum President and have been keenly aware of their 
work for the last decade at the Monitor National Marine 
Sanctuary.
    Thank you for the opportunity to testify during this 
oversight hearing. As you are aware, the Mariners' Museum has 
considered NOAA and those associated with the National Marine 
Sanctuary Program key partners for more than 20 years in the 
important work of preserving and protecting the story of the 
most famous and arguably most significant shipwreck in United 
States Naval history, the U.S.S. Monitor.
    Designated in 1975 as our nation's first national marine 
sanctuary, the Monitor holds a special place not only in the 
history of Virginia and North Carolina but in the Nation as a 
whole.
    In the 1980s, the Mariners' Museum was selected to serve as 
the official repository of the artifacts recovered from the 
wreck site of the Monitor as NOAA began the process of 
selective recovery of key artifacts from that shipwreck which 
ultimately would include the ship's engine, propeller, and most 
significantly, her revolutionary revolving gun turret and 
cannons.
    During those years of major artifact recovery between 1998 
and 2002, NOAA and the Mariners' Museum worked together, and we 
have developed a world-class facility to house and display 
these important artifacts dedicated solely to the preservation 
of the Monitor's story. That facility, I am proud to say, 
opened in March of 2007 to rave reviews.
    Today, the U.S.S. Monitor Center at the Mariners' Museum 
has become one of the premiere maritime attractions in this 
country, if not the world. The Conservation Department has set 
the standard for scientific treatment of large, complex 
artifacts recovered from a marine environment.
    I believe the partnership between NOAA and the Mariners' 
Museum is serving as a model of public/private efforts to 
preserve our nation's maritime heritage. The Monitor Center has 
also done much more than preserve history. It has also helped 
shape the future, our future.
    Through our partnership with the Sanctuary Program, NOAA 
has also helped us protect our local heritage, expand tourism 
and strengthen our economy, not to mention helping our 
community understand the challenges and threats the ocean 
faces.
    Twenty years after we began our partnership with NOAA I can 
tell you that our community and our museum are stronger because 
of the sanctuary program, and we look forward to the next 20 
years working together. As a museum dedicated to telling the 
story of man and the sea, NOAA's work in preserving and 
uncovering our nation's maritime heritage wherever it may be is 
deeply important to the Mariners' Museum.
    At its core, the work of the Mariners' Museum is about 
preservation. I believe NOAA has done a tremendous job in 
preserving our nation's maritime heritage within the protected 
waters of the national marine sanctuaries. I also believe they 
are doing truly important work for our nation in discovering, 
documenting and cataloging new marine heritage resources in our 
oceans and in our waters.
    I am worried about what can be done quickly to afford these 
resources protection. Our nation's maritime heritage is at risk 
from looting, illegal salvage, damage and loss. Additionally, 
once a site is disturbed, either by natural or human forces, 
the deterioration of the site inevitably accelerates, so prompt 
action is needed to assure that proper preservation and 
conservation efforts can be undertaken as quickly as possible.
    As the law now stands, little can be done to protect these 
important discoveries unless they lie within the boundaries of 
the established national marine sanctuary. I would therefore 
respectfully urge the Committee and the Congress to find ways 
to improve the efficiency of this process of designation and of 
amending designation documents after a sanctuary is designated.
    I further urge you to develop a new process for designating 
sanctuaries or special areas of conservation for submerged 
cultural resources to assure expedient preservation efforts. 
Even as we speak, archaeologists from the National Marine 
Sanctuary Program are working off the coast of North Carolina 
to document and discover ships lost during the second world 
war.
    Madam Chairman, I am aware of the new legislation that is 
the subject of this hearing. I believe that it contains much in 
it that will move the National Marine Sanctuaries Program in a 
good and positive direction and will serve the interests of the 
future of the citizens of this country working together with 
the leadership of our nation in preserving these important 
national cultural marine enterprises. Thank you.
    Ms. Bordallo. I thank you, Mr. Sullivan, for your 
thoughtful statement and for the ongoing efforts of the 
Mariners' Museum to enlighten the American public about the 
rich maritime history along the mid-Atlantic coast of the 
United States.
    [The prepared statement of Mr. Sullivan follows:]

     Statement of Timothy J. Sullivan, Executive Director and CEO, 
                            Mariners' Museum

    Good morning, Madam Chair and members of the Committee. My name is 
Timothy Sullivan. I am the President of The Mariners' Museum in Newport 
News, VA, and the former President of the College of William and Mary 
in Virginia. I have worked closely with National Marine Sanctuary 
Program during my time as Museum President and have been keenly aware 
of their work at the Monitor National Marine Sanctuary for the past 
decade. Thank you for the opportunity to testify on this oversight 
hearing on the reauthorization of the National Marine Sanctuaries Act.
    As you are aware, The Mariners' Museum has considered NOAA and the 
National Marine Sanctuary Program a key partner for more than two 
decades in the important work of preserving and protecting the story of 
the most famous and arguably most significant shipwreck in United 
States naval history--the U.S.S. Monitor. Designated our nation's first 
National Marine Sanctuary in 1975, the Monitor holds a special place in 
the history of not only Virginia and North Carolina, but to the nation 
as a whole as she played an important role in the preservation of the 
Union during the difficult years of the American Civil War. In the 
1980s, The Mariners' Museum was selected to serve as the official 
repository for artifacts recovered from the wreck site of the Monitor 
as NOAA began the process of selective recovery of key artifacts from 
the shipwreck which ultimately would include the ships engine, 
propeller and most significantly, her revolutionary revolving gun 
turret and cannons.
    During the years of major artifact recovery, between 1998 and 2002, 
NOAA and the United States Navy recovered literally thousands of 
artifacts from the shipwreck along with the remains of two United 
States sailors lost the night the Monitor sank on New Year's Eve 1862. 
Working together, NOAA and the Mariners' Museum have developed a world-
class facility to house and display these important artifacts, 
dedicated solely to the preservation of the Monitor story. That 
facility I am proud to say opened last March to rave reviews. Today, 
The USS Monitor Center at The Mariners' Museum has become one of the 
premier maritime attractions in the country if not in the world and the 
conservation department has set the standard for scientific treatment 
of large, complex artifacts recovered from a marine environment. With 
an international team of conservators and the newly completed 
laboratory complex, the 200+ tons of material recovered from the 
Monitor are undergoing desalination and chemical and electrochemical 
processes. Through viewing platforms and internet webcams and blogging, 
the public is given a unique opportunity to watch the ongoing 
conservation efforts. Thus the partnership between NOAA and The 
Mariners' Museum is serving as a model of private/public efforts to 
preserve our nation's maritime heritage.
    The Monitor Center has also done much more than just preserve 
history. It has also helped shape the future--our future. Through our 
partnership with the Sanctuary Program, NOAA has also helped protect 
our local heritage, our tourism, and our economy and has helped our 
community better understand the challenges and threats our oceans face. 
The Sanctuary Program has brought enhanced recreational opportunities, 
educational initiatives, research capabilities and economic development 
to our community. Working with our partners at NOAA, the Monitor Center 
has become a major tourist attraction and point of pride for the 
communities of Hampton Roads and most certainly for the City of Newport 
News. In fact, attendance at our facility has almost doubled in the 
year since the USS Monitor Center opened and tens of thousands of 
school children have been inspired by the story of the Monitor and her 
famous Battle of the Ironclads in Hampton Roads in 1862. In addition to 
the work on the USS Monitor, we have also had the terrific opportunity 
to work with NOAA on other projects and initiatives and have benefited 
greatly from the Sanctuary Program's ongoing work around the country in 
promoting and preserving our nation's maritime heritage. Twenty plus 
years after we began our partnership with NOAA, I can tell you that our 
community and our Museum are stronger because of NOAA and the Sanctuary 
Program and we look forward to the next twenty years working together.
    As a museum dedicated to telling the story of man and the sea, 
NOAA's work in preserving and uncovering our Nation's maritime 
heritage--wherever it may be--is of keen interest to The Mariners' 
Museum. At the core of our mission, The Mariners Museum is about 
preservation. I believe NOAA has done a tremendous job in preserving 
our nation's maritime heritage within the protected waters of our 
National Marine Sanctuaries, and I believe they are doing truly 
important work for our Nation in discovering, documenting and 
cataloging new marine heritage resources in our oceans and great lake 
waters. But I am worried about what can be done to quickly afford these 
resources protection once they are discovered. Our Nation's maritime 
heritage is at risk from looting, illegal salvage, damage and loss. 
Additionally, once a site is disturbed--either by natural or human 
forces--the deterioration of the site accelerates considerably. Thus 
prompt action is needed to assure that proper preservation and 
conservation efforts can be undertaken as quickly as possible.
    As NOAA and the Sanctuary Program continue their important work of 
cataloging our Nation's marine heritage resources, little can currently 
be done to protect those important discoveries unless they lie within 
the boundaries of an established National Marine Sanctuary. I would 
therefore respectively urge the committee and the congress to find ways 
to improve the efficiency of the process for designating sanctuaries 
and amending designation documents after a sanctuary is designated. I 
further urge you to develop a new process for designating sanctuaries 
or special areas of conservation for submerged cultural resources for 
expedient preservation efforts
    Even as we speak, Archaeologists from the National Martine 
Sanctuary Program are working in the waters off the coast of North 
Carolina to document and discover ships lost during the Second World 
War during the Battle of the Atlantic including three German U-Boats. 
Many of the discoveries being made are important to our national story, 
and yet once the divers leave the site, very little can be done to 
protect them from looting as they are not protected by the National 
Marine Sanctuary Act. In fact the sites which have been visited by 
these archaeologists in the past few weeks show unbelievable 
destruction by looters and souvenir hunters in spite of the fact that 
these sites are war graves. From the Museum's perspective, these NOAA-
sponsored expeditions are important to the Museum as they become the 
content for new exhibits, programs and educational initiatives, but 
they are only the first step. As I consider the success we have had 
with Monitor, I can only wonder what the site of the Monitor would look 
like today if the Sanctuaries Act had not been put into play to protect 
the wreck shortly after the Monitor was discovered. I have no doubt 
that had the United States government not moved swiftly after the wreck 
was positively discovered in 1974, that there would be little left to 
protect today. I believe we must work to strengthen the National Marine 
Sanctuary Act so that new maritime heritage discoveries can be quickly 
protected just as the Monitor was.
    As this demonstrates one of the main pillars of working with a 
sanctuary or with the System is partnerships. As we have experienced 
and no doubt many others have as well, working with NOAA and the 
Sanctuary System is a positive experience when two or more groups are 
focused on a common goal or vision. Great things have come out of this 
type of approach and no doubt great things will come in the future.
    I want to also make a statement about the importance of the 
National Marine Sanctuary System to this Nation's ocean conservation 
ethic. As far as Federal leadership, it's all we have. As the only 
Federal agency dedicated to protecting living as well as cultural and 
historical resources of the sea, Sanctuaries protect our oceans just as 
the Park Service is focused on terrestrial conservation. If we have 
learned anything from the terrestrial or land experience of 
conservation related ethics, and the dimension, its about places, 
special places. Sanctuaries are these special places. We need this 
continued leadership and partnership is important to the Mariners 
Museum and many others like us.
    As president of an institution that has for more than 75 years 
dedicated itself to preserving our maritime past, I urge you to pass 
reauthorization of the National Marine Sanctuary Act and to include 
those amendments that would strengthen the National Marine Sanctuaries 
Program's ability to protect our Nation's maritime heritage and to 
improve the efficiency of the process for designating sanctuaries and 
amending designation documents after a sanctuary is designated. I 
strongly encourage you to develop a new process for designating 
sanctuaries or special areas of conservation for submerged cultural 
resources for quick preservation efforts. And lastly, I urge you to 
lift the moratorium on the designation of new sanctuaries and to help 
find ways to identify and prioritize new maritime heritage sites 
considered for designation.
                                 ______
                                 
    Ms. Bordallo. Now, as Chair, I recognize Mr. Kroll. I 
commend you for your leadership role in chairing the Thunder 
Bay Sanctuary Advisory Council, and I look forward to hearing 
from you regarding the proposed expansion of the Thunder Bay 
National Marine Sanctuary. Please begin.

STATEMENT OF STEPHEN KROLL, CHAIR, THUNDER BAY NATIONAL MARINE 
       SANCTUARY ADVISORY COUNCIL, DIVING REPRESENTATIVE

    Mr. Kroll. Thank you, and good morning, Madam Chair and 
members of the Committee. My name is Steve Kroll, I am a 57 
year resident of Rogers City, Michigan, a retired high school 
math teacher and Chair of the Thunder Bay Sanctuary Advisory 
Council. I have owned and operated a dive shop and charter 
business in Presque County, Michigan, for 35 years.
    Thank you for the opportunity to testify on H.R. 6204, the 
Thunder Bay National Marine Sanctuary and Underwater Preserve 
Boundary Modification Act. I might say that my mother advised 
me that they don't give you much time to talk, so don't 
stutter.
    I am here today to support H.R. 6204 because it would add 
some protection to some of the nation's best preserved 
shipwrecks and expand successful sanctuary programs to other 
communities in northeast Michigan. Communities along the coast 
of Presque and Alcona Counties are maritime-oriented and ready 
to recapture, preserve and protect their maritime heritage.
    I have been diving area shipwrecks for 42 years and can 
testify that they are the best preserved shipwrecks in the 
world and there are many more to be found. I have brought 
photos of two of these shipwrecks, the F.T. Barney on the right 
and the Florida on the left. The F.T. Barney is a 130 foot 
schooner that sank near Rogers City in 1868.
    You would find a ship that looks ready to sail if you took 
the time to dive on her. A ship's wheel, one mast still 
standing, anchors, rigging blocks, dishes, running lights and 
the compass are all there for us to see. This wreck is listed 
in the National Register of Historic Places.
    The Florida is a 271 foot wooden steamer that sank off the 
shore of Presque in 1889. The wreck is mostly intact, and in 
addition to containing all of its ships artifacts, it is loaded 
with a cargo called general stores, items that served everyday 
needs of people at that time.
    Both of these wrecks are outside of the current sanctuary 
boundaries and are not provided the same protection as 
shipwrecks inside the sanctuary. It is very important that you 
understand one important part of this testimony because I was 
originally against the establishment of the sanctuary.
    I believed having the Federal government determine what we 
should do with our resources would lead to too many 
restrictions. This attitude was shared by many citizens and 
expressed at public hearings prior to designation. As a result, 
the proposed size of the sanctuary was greatly reduced.
    I now see that this was unfortunate as the sanctuary has 
proven itself a trusted partner, not just with the State of 
Michigan, but also with the local community. The Sanctuary 
Program should serve as a model for other government programs. 
Public input is received by NOAA with the attitude they can 
learn, react and grow from it.
    I have been involved in this process, and I can assure you 
it is very real and working. What will an expanded Thunder Bay 
National Marine Sanctuary mean to northeast Michigan? I believe 
that an expanded sanctuary will provide increased protection 
for shipwrecks in Presque and Alcona Counties and provide 
greater opportunities for education, research, long-term 
monitoring and law enforcement.
    I personally support sanctuary boundary expansion because I 
believe it will provide a vehicle for education. Yes, we need 
to protect these shipwrecks, but it is not just about them. It 
is about our past, present, and most importantly, our future. 
The sanctuary has programs and opportunities for individuals of 
all ages to utilize and enhance their educational skills.
    I have seen this firsthand as a Judge for the International 
Remotely Operated Vehicle Building Competition which inspires 
students to pursue careers in math, science, marine technology 
and archeology. Whether it is a young person learning to map a 
shipwreck site, a graduate student researching shipbuilding or 
a family building a boat together, it is about passing on the 
values we have preserved.
    Volunteer participation is a testament to community support 
for the sanctuary. The sanctuary has over 100 volunteers whose 
talents and expertise are utilized daily in the operation of 
the sanctuary. I am one of those volunteers because I believe 
in the sanctuary's mission. I strongly urge you to pass both 
H.R. 6204 and the Sanctuary Enhancement Act because I believe 
sanctuaries benefit not just northeast Michigan, but the entire 
United States.
    Thank you, again, for this opportunity to testify before 
the Committee. I will be glad to return and answer any 
questions you may have. I also invite you to visit and 
experience northeast Michigan's lower peninsula.
    Ms. Bordallo. Thank you. I will take you up on that 
invitation, Mr. Kroll. I want to thank you very much for your 
testimony this morning.
    [The prepared statement of Mr. Kroll follows:]

                   Statement of Steve Kroll, Chair, 
                 Thunder Bay Sanctuary Advisory Council

    Good morning Madame Chair and members of the committee. My name is 
Steve Kroll. I'm a 57-year resident of Rogers City, Michigan, a retired 
high school math teacher, and Chair of the Thunder Bay Sanctuary 
Advisory Council. I've owned and operated a dive shop and charter 
business in Presque Isle County, Michigan for 35 years. Thank you for 
the opportunity to testify on H.R. 6204, the Thunder Bay National 
Marine Sanctuary and Underwater Preserve Boundary Modification Act.
    I'm here today to support H.R. 6204 because it would add protection 
to some of the nation's best preserved shipwrecks and expand successful 
sanctuary programs to other communities in northeast Michigan. 
Communities along the coasts of Presque and Alcona Counties are 
maritime orientated and ready to recapture, preserve, and protect their 
maritime heritage. I've been diving area shipwrecks for 42 years and 
can testify that they are the best preserved shipwrecks in the world 
and there are many more to be found. I've brought photos of two of 
these shipwrecks: the F.T. Barney and the Florida. Diving on the F.T. 
Barney, a 130-foot schooner that sank near Rogers City in 1868, you 
would find a ship that looks ready to sail. A ship's wheel, one mast 
still standing, anchors, rigging blocks, dishes, running lights, and 
the compass are all there to see. This wreck is listed in the National 
Register of Historic Places. The Florida is a 271-foot wooden streamer 
that sank off the shore of Presque Isle in 1889. The wreck is mostly 
intact, and in addition to containing all of its ship artifacts, it's 
loaded with a cargo called general stores, items that served the 
everyday needs of the people at that time. Both of these wrecks are 
outside of current sanctuary boundaries and are not provided the same 
protection as shipwrecks inside the sanctuary.
    It's very important that you understand that originally I was 
against establishment of the sanctuary. I believed having the federal 
government determine what we should do with our resources would lead to 
too many restrictions. This attitude was shared by many citizens and 
expressed at public hearings prior to designation. As a result, the 
proposed size of the sanctuary was greatly reduced. I now see that was 
unfortunate since the sanctuary has proven itself as a trusted partner, 
not just with the State of Michigan, but also with the local community. 
The sanctuary program should serve as a model for other government 
programs. Public input is received by NOAA with the attitude that they 
can learn, react, and grow from it. I've been involved in the process 
and can assure you it's real and working.
    On May 22, 2007, the Thunder Bay Sanctuary Advisory Council voted 
to recommend expansion of the Thunder Bay National Marine Sanctuary. 
The advisory council represents local governments and community 
interests including diving, fishing, and economic development. Prior to 
this vote, I was part of the working group that evaluated the pros and 
cons of expanding the sanctuary. The working group considered the 
following in our discussions: how many additional shipwrecks would be 
protected, how sanctuary programs could be expanded to other 
communities, and the impact of expansion on existing sanctuary 
operations. The working group came to the conclusion that there was no 
reason not to expand the boundary and many reasons to expand it. When 
the working group presented its findings to the full advisory council, 
there was considerable enthusiasm and no dissent. Many county entities 
and citizen groups of both Presque Isle and Alcona counties also voiced 
their support for this expansion.
    What will an expanded Thunder Bay National Marine Sanctuary mean to 
northeast Michigan? I believe that an expanded sanctuary will provide 
increased protection for shipwrecks in Presque Isle and Alcona Counties 
and provide greater opportunities for education, research, long-term 
monitoring, and law enforcement. I personally support sanctuary 
boundary expansion because I believe it will provide a vehicle for 
education. Yes, we need to protect the wrecks but it is not just about 
them. It's about our past, present, and most importantly our future. 
The sanctuary has programs and opportunities for individuals of all age 
levels to utilize and enhance their educational skills. I've seen this 
firsthand as a judge for an international Remotely Operated Vehicle 
Building Competition, which inspires students to pursue careers in 
math, science, marine technology, and archaeology. Whether it's a young 
person learning to map a shipwreck site, a graduate student researching 
ship building, or a family building a boat together, it's about passing 
on the values we've preserved.
    Volunteer participation is a testament to community support of the 
sanctuary. The sanctuary has over 100 volunteers whose talents and 
expertise are utilized daily in the operation of the sanctuary. I'm one 
of those volunteers because I believe in the sanctuary's mission.
    In regard to the Sanctuary Enhancement Act, I have not had the 
opportunity to review this act but I do support NOAA working with non-
governmental partners to enhance support for the sanctuary because I've 
seen it positively affect the community. A perfect example is the 
successful partnership between the sanctuary and Alpena Regional 
Medical Center which led to funding of a hyperbaric chamber facility in 
northeast Michigan. The facility provides treatment for divers 
suffering dive-related injuries and treats other patients with aliments 
that benefit from hyperbaric oxygen treatment.
    I strongly urge you to pass both H.R. 6204 and the Sanctuary 
Enhancement Act because I believe sanctuaries benefit not just 
northeast Michigan, but the entire United States. Thank you again for 
this opportunity to testify before the Committee.
                                 ______
                                 
    Ms. Bordallo. Now, I recognize Mr. Marks. Thank you for 
being with us, and you are now recognized to testify for five 
minutes.

              STATEMENT OF RICK MARKS, PRINCIPAL, 
                HOFFMAN, SILVER, GILMAN & BLASCO

    Mr. Marks. Madam Chair, Ranking Member Brown and 
distinguished members of Subcommittee, greetings. My comments 
on the Sanctuary Enhancement Act today here are my own but they 
do reflect the opinions of my clients and colleagues that 
operate in fisheries around the Nation in and out of seven 
existing sanctuaries.
    I appreciate your effort to retain some of the focus on the 
unique areas that are of special national significance. The 
inventory provision in your bill specifies that discrete areas 
be considered for designation, and this is very important 
because it maintains the consistency with what the regulated 
community believes the targeted focus of the Act should be and 
is.
    I also support clarification for the regulated public and 
private uses of sanctuary resources and your willingness to 
address the fishing regulation issue. I also appreciate the 
consultation provision for the tribes. I note that the Olympic 
Coast Sanctuary is a special case, the only one that 
encompasses four usual unaccustomed areas of the Northwest 
Treaty tribes.
    I am a bit disheartened that there is not a specific 
provision in this bill to deal with the elevation of that 
issue, but I do hope that you will work with the tribes to 
elevate their role in that sanctuary to the appropriate level. 
Finally, I applaud your authorization levels for additional 
appropriations.
    In terms of my areas of concern, the bill lacks a 
requirement for sanctuary decisions to be based on the best 
scientific information available. There is a perception that 
exists that sanctuary decisions are more policy than science 
driven. You can resolve this issue by applying scientific 
integrity to all sanctuary decisions using the standards in the 
Magnuson-Stevens Act.
    Your bill also contains new requirements that require the 
Sanctuary Program to identify and protect maritime heritage 
resources. Based on my work in and around the graveyard of the 
Atlantic, I certainly would support that. However, the term 
expands to an undefined area concept in the bill and that has 
some serious resource use implications.
    H.R. 6537 requires a specific review of the impacts of 
fishing but would not require the same review of any other 
activities. This unitary focus, I believe, is unrealistic 
because merely addressing fishery issues will not necessarily 
protect the sanctuary or the ecosystem.
    H.R. 6537 also repeals the designation limitation. My 
concern here, Madam Chair, is the removal of the fiscal checks 
and balances. This is analogous to the situation we had with 
our national parks where we consider adding new parks while the 
existing ones fall in disrepair. I would suggest that you 
retain the limitation until such time that we can remove the 
budgetary constraints on the Sanctuary Program.
    Regarding the fishing regulations, the new mission 
statement does not include sustainable use of sanctuary 
resources. Clearly, the program is being recast to protect 
rather than use. This represents a fundamental shift. On the 
west coast, sanctuaries were originally conceived to address 
concerns over oil and gas exploration and development.
    The U.S.S. Monitor was protected for its maritime heritage 
value. Commercial and recreational fishermen and tribal 
interests generally supported establishment of the sanctuaries 
because they were led to believe that their fishing activities 
and their access would be guaranteed. Changing policies for 
existing sanctuaries is a bit of a Trojan Horse.
    Most disappointing to me, quite frankly, is the trawl ban 
that is included in your bill. This amounts to legislating 
predetermined management decisions and circumventing the public 
process, not to mention the scientific process. This is 
extremely worrisome if you consider this provision along with 
the system expansion goals.
    Madam Chair, I have to tell you now that the opposition to 
this provision from the regulated community from every region 
cannot be overstated. H.R. 6537 will still require that fishing 
regulations be compatible with the new mission. Considering 
that fact, plus the bottom trawl ban, plus the actions to 
prohibit fishing in Monterey and Channel Islands makes it hard 
for me to envision how any sanctuary fishing in the future will 
be safe.
    In 2005 and 2008, the council chairs adopted a unanimous 
position to amend the Sanctuary Act to exclude fishing 
resources as sanctuary resources and to achieve the 
jurisdictional clarity by vesting fisheries management under 
the Magnuson-Stevens Act. Having served on a council, I agree 
with that approach.
    It ensures that fishing resources are managed to achieve 
the greatest benefit of the Nation consistent throughout the 
range and with the best available scientific information. 
Councils are mandated to minimize the impacts of fishing on 
habitat and can use ecosystem-based tools to protect areas, 
which they are now doing.
    In closing, Madam Chair, I believe the council system is 
equipped to manage and protect fishery and ecosystem resources 
while the Sanctuary Program is not, nor was it ever designed to 
handle such comprehensive and challenging tasks. Congress, and 
in particular this Committee and this Subcommittee, invested 
years of hard work to enhance the Magnuson-Stevens Act.
    There is no reason why that should not be the primary tool 
we use to manage our fishing resources. Madam Chair, I thank 
you, Ranking Member Brown and the members of the Subcommittee 
for having me as your guest today.
    Ms. Bordallo. I thank you, Mr. Marks. Your comments were 
very helpful, and I will take into consideration some of the 
suggestions you have made. I hope to be able to continue to 
work with you and other stakeholders to refine and clarify my 
legislation.
    [The prepared statement of Mr. Marks follows:]

      Statement of Rick Marks, Hoffman, Silver, Gilman & Blasco, 
                          Arlington, Virginia

Introduction
    Madame Chair Bordallo, Ranking Member Brown and distinguished 
members of the Subcommittee, I appreciate the opportunity to speak with 
you today about the ``Sanctuary Enhancement Act of 2008'', H.R. 6537.
    I am Rick Marks, a principal at Hoffman, Silver, Gilman & Blasco 
PC.(HSGB). We are the oldest operating law firm in the State of Alaska 
formerly known as ``Robertson, Monagle & Eastaugh''. We have offices 
throughout Alaska and Northern Virginia and our clients operate in 
various marine environments around the nation.
    Prior to joining HSGB, I was appointed by the Secretary of Commerce 
to serve on the Mid-Atlantic Fishery Management Council and worked as a 
lead marine fishery biologist for the State of North Carolina. I worked 
for NOAA/NMFS twice--once as a Fishery Reporting Specialist and once as 
a benthic laboratory and field technician. I participated in the USS 
Monitor artifact negotiations, and the WWII Mark IV Enigma coding 
machine ownership negotiations with the Federal Republic of Germany. I 
served as the East Coast representative for the National Fisheries 
Institute and worked for two seasons as a mate on charter fishing 
vessels. I hold a Masters Degree in Marine Environmental Science with 
emphasis in Fish Ecology from Stony Brook University as well as a 
Bachelor of Science in Biology from Lynchburg College. I currently 
serve at the pleasure of the NMFS Assistant Administrator on four 
Federal Marine Mammal Protection Act-mandated ``Take Reduction Teams'' 
(TRTs).
    Since we had just five working days to organize our testimony on 
H.R. 6537, all of our clients did not have time to formally approve 
this final version. Therefore, for the record my comments here today 
are solely my own. However, please note my testimony reflects issues 
critical to many of my clients and associates around the country 
including several that operate in or near seven existing national 
marine sanctuaries--Olympic Coast, Monterey, Channel Islands, Cordell 
Banks, Gulf of Farallones, Florida Keys and Stellwagen Bank. Recently, 
you were kind enough to receive oversight testimony directly from one 
of my current clients--Chairman Micah McCarty of the Makah Tribe. Where 
appropriate, my comments will expand on those provided by Chairman 
McCarty.
    Today I will deal with the substantive issues of H.R. 6537. I 
intend to discuss three topics: (1) positive aspects of this 
legislation; (2) areas of concern; and (3) fisheries regulations. I 
will also include recommendations along the way that are intended to 
improve the legislation.
Strengths of H.R. 6537
    Regarding Section 301(b) I appreciate your efforts to retain some 
of the core purposes and policies of the National Marine Sanctuary Act 
(NMSA) including the assurance that we look at areas of the marine 
environment that are of special national significance. The importance 
of this underlying concept must not be underestimated. We should heed 
this requirement and choose sites wisely or else the program may suffer 
the same problem that initially plagued the Magnuson-Stevens Act (MSA) 
essential fish habitat designation process--``if everything is 
essential then nothing is.''
    Further along in Section 301(b) I also support the clarification 
allowing for regulated public and private uses of sanctuary resources. 
While we may not agree on exactly what those uses are and the degree to 
which they may be exercised, it is nonetheless important to our clients 
that we see this recognition in the policy section and we thank you for 
that addition.
    We support the Resource Classification, Identification and 
Inventory specified in Section 303 and in particular, the provision at 
303(d)(1) which specifies that ``discrete'' areas of the marine 
environment be considered for potential designation as a sanctuary. 
This provision maintains consistency with the purposes and policies 
section in 301(b). We recommend a formal, independent peer review be 
conducted of the final site selection list to ensure that areas 
prioritized for designation are unique, discrete marine areas of 
special national significance.
    We very much appreciate your effort to resolve the fishing 
regulation conflict in Sections 304 and 308 and to have the Regional 
Councils clearly involved in the process. While we have not reached a 
resolution with this version of H.R. 6537 I want to express sincere 
thanks to you and your staff for focusing on this issue. I will circle 
back to this discussion in the part of my testimony addressing fishing 
regulations.
    In Section 308(b)(5) we recognize and appreciate the cooperation 
and consultation provision, especially for Federally-recognized Indian 
Tribes. It is critical these interests be afforded the proper 
government-to-government recognition specified by their treaties, 
embodied in Executive Orders 13158 and 13175, and further clarified in 
case law.
    As noted by Chairman Micah McCarty of the Makah Tribe at your NMSA 
oversight hearing on June 18th, it is important to recognize that the 
Olympic Coast National Marine Sanctuary (OCNMS) is a special case due 
to the fact that it is the only sanctuary within the combined U&A Areas 
of four Treaty Tribes. I am disheartened that a tribal consultation 
provision specific to the OCNMS is not contained in H.R. 6537. I do 
hope you and your staff will work cooperatively with the Makah Tribe 
and other Northwest Treaty Tribes to provide specific statutory 
authorization for the existing IPC, moving from an MOA to a binding 
legal arrangement which specifies co-management opportunities, ensures 
federal treaty trust responsibility, and clarifies a government-to-
government consultation process.
    I also support conceptually the idea of special use permits in 
Section 310. While I retain some concerns about practical 
implementation and utility, this provision does maintain consistency 
with allowing for regulated public and private use of sanctuary 
resources. We recommend the sanctuary program be required to use the 
best available science in decision making regarding issuance of special 
use permits.
    Finally, I support your overall program authorization levels for 
additional appropriations in Section 313 provided those appropriations 
do not negatively impact funding levels for our ongoing fisheries 
research and management programs which you well know are woefully 
under-funded.
Areas of Concern
    Section 301(a)(4) indicates that scientific research has confirmed 
that protected areas do a number of wonderful things both inside and 
outside of the protected zones including repopulating adjacent areas. I 
would be remiss in my scientific duties if I did not point out that 
there remains significant controversy about these benefits and should 
be viewed on a sanctuary-specific, case by case basis. Some leading 
scientists (Hilborn and Walters, 2008) suggest that in certain 
instances, benefits of protected areas may not be either extensive or 
net positive.
    Indeed, the value of MPAs has been shown in tropical areas with 
more sedentary or habitat-specific species, but not in areas with 
dynamic ocean conditions such as the West Coast. It also has not been 
demonstrated for species that are migratory such as whiting, Dover 
sole, sablefish, Atlantic bluefish, various squids and Atlantic 
mackerel. For other benthic species such as lingcod, time/area closures 
may work equally well in protecting stocks during sensitive spawning or 
rearing times.
    Dynamic marine environments experience constant input/output of 
biological, physical and chemical components. Being able to maintain 
total ``ecosystem'' protection is a fairly broad claim, especially when 
talking about perceived threats such as global climate change. For 
example, the buildup of atmospheric CO<INF>2</INF> has been linked to 
ocean acidification and simply putting areas off-limits to fishing will 
do nothing to address other impacts.
    Citing these uncertainties I also note that the NMSA, even with the 
proposed changes, would still lack a specific requirement that 
decisions be based on the best scientific information with provisions 
crafted to implement such standards. Currently, it is my sense the 
sanctuary process often times appears to be more ``policy'' driven than 
anything else. As a starting point I recommend that clear scientific 
integrity be required of NMSA decisions using the same standards that 
apply to MSA actions.
    In Section 301(c)(1)(B) of H.R. 6537, Congress would bring marine 
national monuments under the jurisdiction of the NMSA. This presents a 
double-edged sword for resource use constituencies. Certainly, once an 
area is designated pursuant to the ``Antiquities Act'' (``The Act'', 
Chpt.3060; 16 U.S.C. 431) there should be some applicable management 
and regulatory regime by which the public can gain benefit and access 
to the area. It would appear that the NMSA is the most appropriate 
statute.
    However, designations pursuant to the Antiquities Act are arguably 
not achieved by way of a scientifically-defensible, public process. If 
we proactively envelop monuments into the NMSA as is proposed here, do 
we encourage future designations to be done separate from the public 
process? I believe we may do just that.
    As a justification for my concerns we can look to the much-rumored 
example of the ``Islands in the Stream'' initiative being supposedly 
developed by among others, the Council on Environmental Quality (CEQ) 
and the National Ocean Service (NOS). If the rumors are true about 
linking the Flower Garden Banks across the Pinnacles to the Florida 
Keys Sanctuary via monument authority then it is being discussed with 
little or no public process. By proactively allowing the addition of 
future monument designations to the NMSA we are facilitating the very 
activities that are anathema to what we should be trying to achieve 
with a transparent, science-driven, fiscally-responsible designation 
process.
    H.R. 6537 contains new requirements to identify and protect 
maritime heritage resources (See Sections 301, 302, 303, 306, and 310). 
The term is defined at 302(a)(14) but then quickly morphs into 
``maritime heritage resources areas'' at 303(c)(3)(A)(ii) and (C) and 
(d)(1)(B) without any explanation what the new term means or what the 
implications are for area management. Having worked for years in and 
around the Graveyard of the Atlantic I have a special appreciation for 
preserving maritime heritage resources but expanding this to an 
undefined area concept with resource use implications is serious cause 
for concern and not just for fishermen along North Carolina's Outer 
Banks.
    A ``System Expansion Goal'' provision is incorporated into Section 
6 of H.R. 6537 specifying the Secretary should strive to add the number 
of sites necessary to incorporate a full range of ecoregions and rare 
and unique habitats and maritime heritage resource areas before 2030. 
My concern here is that numerical goals could drive what should be a 
deliberative, scientific, and fiscally-responsible designation process. 
It may make more sense to remove the numerical target and endeavor to 
add those areas that truly qualify as discrete areas of national 
significance that we can manage effectively.
    Section 7 (Sec. 304) revises the designation procedures and 
management plan review process. Here, H.R. 6537 reduces (by 6 mos.) the 
time to publish a notice of designation but increases the period of 
management plan review from 5 to 7 years. Furthermore, subsequent 
management plan reviews are pushed back from once every 5 years to only 
once every 10 years. These changes are counterintuitive for managing 
dynamic marine systems--on the one hand we increase the speed to 
designate but on the other we delay a review of what we have done. This 
will effectively reduce government oversight, slow the system's 
reaction time to make substantive changes, and possibly dull the 
effectiveness of the advisory panels.
    Furthermore, the management plan review section appears to require 
a specific review of the impacts of fishing regulations within the 
sanctuary but would not require the same level of review for any other 
activity. This is also counterintuitive since there are numerous other 
activities that may impact sanctuary resources. It is unclear how 
controlling fishing activities will protect the health of the entire 
ecosystem while whale watching, boating, water pollution, air 
pollution, non-point source discharge, marine mammal predation, vessel 
strikes, ocean acidification, etc., are not the subject of similar 
scrutiny or control.
    H.R. 6537 repeals the limitation on new sanctuary designations and 
the associated findings requirement. My primary concern here, in 
addition to the fiscal burden of new designations on previously 
designated sanctuaries, is the willing removal of the checks and 
balances inherent in the current findings at 16 U.S.C. 1434(f)(1). 
Currently, before he can add a new designation the Secretary must 
ensure that a new designation will not have a negative impact on the 
system, that he has sufficient resources available in the fiscal year, 
that he can effectively implement a sanctuary management, and that he 
can complete an inventory within 10 years at the current funding level.
    The existing designation language provides some fiscal 
responsibility on whether the Secretary has adequate funds to 
administer existing sanctuaries before creating new ones. This is 
analogous to the situation we face in our National Parks, where new 
parks are created while existing ones are falling apart due to the lack 
of operational capital. My recommendation is to retain the designation 
limitations until such time that we can change the budgetary 
constraints on the NMSP.
    Section 306 revises the prohibited activities provisions by 
striking the phrase ``knowingly and willfully'' on paragraph (3)(C) 
regarding submission of false information to the Secretary or any 
authorized officer. This change lowers the legal standard to the point 
that a person could be prosecuted under the full extent of the penalty 
schedule for making a simple mistake. By all means I support the law 
being applied to the fullest extent possible for determined criminal 
activity but this new standard seems rather excessive for an honest 
mistake.
    Similarly, increasing the maximum prison sentence (from 6 months to 
2 years) and increasing the maximum fine (from $100,000 to $250,000) 
for violations of the Act seem relatively harsh. Changes in the penalty 
schedule could be warranted should the number and scope of NMSA 
violations be of such serious concern but there is no indication from 
NOS that this is the case.
    Section 309 is amended here to permit the Secretary to withhold 
certain public information to protect sanctuary resources. Subpart (ii) 
allows the Secretary to further determine who may have access to these 
data but provides no standard by which the Secretary shall make that 
determination. Active withholding of such information in the context of 
artifacts discovered within the Olympic Coast Sanctuary is inconsistent 
with the Federal treaty trust responsibilities afforded the four Treaty 
Tribes of Washington State (i.e. Makah, Ho, Quinault, Quileute). The 
OCNMS is located entirely within the combined Usual & Accustomed Area 
of these four federally-recognized Tribes and any discoveries of 
cultural artifacts should be shared with them immediately.
    New Section 310 allows the Secretary to issue permits for bottom 
trawling in some cases but then goes on to require conditions and 
restrictions that make it impossible for an individual fisherman to 
actually get a permit. Also unclear is whether any fisherman--
commercial or recreational--would be required to have a permit issued 
under this section. There should be an explicit statement that fishing 
allowed by regulation would not require a separate Sanctuary permit. I 
note here that that applicable language is found in subsection (g) of 
the existing NMSA but was omitted in H.R. 6537.
    Finally, there is a fundamental change to the provision clarifying 
how the Act relates to other existing federal laws in Section 
301(b)(2). The original NMSA authority complemented existing regulatory 
authority while the new language appears to make existing authority 
comply with the mission of the sanctuary system. It would be helpful if 
a provision could be added explaining that the Act is not intended to 
override other federal laws dealing with the marine environment but is 
intended to complement them.
Fisheries Regulations
    Turning to fishery resource management, the proposed NMSA 
``mission'' statement specified at 301(c)(2) is well crafted but does 
not include any real use of sanctuary resources. Clearly, the system is 
being redesigned to protect resources (including fish), not utilize 
them. I note this here because it forms a critical philosophical 
component in the debate over fishing regulations in sanctuaries.
    This new mission statement represents a major fundamental change in 
the purpose of the Sanctuary system, a change which--had it been in 
effect prior to the designation of existing sanctuaries--would have 
resulted in different views on establishing them in the first place. 
For example, on the West Coast, sanctuaries were established primarily 
over concerns about oil exploration and development. The USS Monitor 
was protected off the coast of North Carolina for its maritime heritage 
value.
    Ocean resource users such as commercial and recreational fishermen 
and tribes generally supported establishment of sanctuaries because 
they were led to believe that fishing opportunities and access would be 
protected. Changing policies for existing sanctuaries is the equivalent 
of re-zoning property for non-commercial use after the owner has 
already made investments on that property.
    A perfect example of this bait and switch can be seen in the 
``Fishing Activities'' portion of the Monterey Bay NMS Final EIS (See 
NOAA, Vol. II, Part IX, Section F; Response to Comments on Draft EIS, 
Issue 13--Regulation of Fishing, pgs. F-41 to F-43, 1992). Regarding 
the question concerning the prohibition and management of fishing 
within the sanctuary NOAA responded with the following
        Existing fisheries are not being regulated as part of the 
        Sanctuary regime and fishing is not included in the Designation 
        Document as an activity subject to future regulation. Fisheries 
        Management will remain under the existing jurisdiction of the 
        state of California, NMFS and PFMC.
    Similarly, Congressman Sam Farr (D-17th), a well-respected coastal 
legislator and current co-sponsor of H.R. 6537 submitted clarifying 
correspondence to Mr. William Douros, Superintendent of the Monterey 
Bay NMS (See Farr, 2002) elucidating a position similar to NOAA's on 
fishing regulations in the sanctuary. Representative Farr's letter 
contains a section titled ``The Role of the Sanctuary in Regulating 
Fisheries'' from which the following quote is taken
        In the process of building support for the designation of the 
        sanctuary, a clear commitment was made to the fishing community 
        that the sanctuary would not impose any regulations directed at 
        fishing activities or fishing vessels. This agreement is based 
        on the understanding that the fisheries within the sanctuary 
        are already being regulated and that there is neither the 
        necessity nor the resources for the National Marine Sanctuary 
        Program to take on this responsibility. The regulation of 
        fishing in the sanctuary should remain under the jurisdiction 
        of the California Department of Fish and Game and the Pacific 
        Fisheries Management Council. Any future reexamination of this 
        relationship should be conducted directly with representatives 
        of the fishing and these agencies.
    Despite these prior promises, designation documents that do not 
allow the regulation of fishing activities or fishing vessels, and 
despite a lack of consensus with the regulated community--approximately 
64% of the Monterey Bay NMS is off limits to fishing (Hilborn and 
Walters, 2008). This year, the sanctuary superintendent announced (as 
of February 15, 2008) that NOS will proceed with the implementation of 
MPAs in the federal waters of the Monterey Bay NMS. It is our 
understanding that the proposed MPAs would only ban fishing while no 
other activity would be impacted.
    In the nearby Channel Islands, the role of the sanctuary in fishing 
regulations is also being painfully felt by the regulated community. In 
the document titled ``Our National Marine Sanctuaries 2007 
Accomplishments Report (NOAA/NOS/NMSP 2007) the single ``Featured 2007 
Accomplishment'' listed for the entire National Marine Sanctuary 
Program is described as follows
        Marine conservation in U.S. waters increased in July when NOAA 
        expanded protected areas within the Channel Islands National 
        Marine Sanctuary. The move permanently bans fishing from nearly 
        111 square miles around the Channel Islands, extending a 
        network of marine reserves that now make up the largest area of 
        no-fishing zones in the continental United States.
    Clearly, the Sanctuary mission has evolved over time by shifting 
away from protecting discrete marine areas to one geared toward closing 
large areas to fishing under the guise of ``ecosystem management'' with 
little in the way of standards, scientific peer review, and transparent 
public processes. Unfortunately, rather than rectify the fishing 
regulation problem and address the conflict between the M-SA and the 
NMSA, H.R. 6537 appears to make matters worse.
    Perhaps most shocking in all of H.R. 6537 is Section 306(a)(5) 
which specifies an outright ban on ``bottom trawling'' for any 
sanctuary designated before January 1, 2009 unless expressly approved 
by the Secretary consistent with the sanctuary mission, and a full ban 
with no exception for any sanctuary designated on or after that same 
date. This amounts to legislating pre-determined management decisions 
for sanctuaries and monuments thereby circumventing the entire public 
and advisory processes.
    Should the trawl ban provision be retained and implemented absent a 
scientific determination process, what would prevent the sanctuary 
program from prohibiting all fishing gear that touches bottom including 
gear that has even the potential to touch the sea floor under the new 
mission to protect all sanctuary resources? This is a very serious 
issue for all marine fishing constituencies.
    The ban on trawling is particularly galling to the regulated 
community if you consider its application along with the ``System 
Expansion Goal'' specified at Section 6 and the addition of numerous 
but undetermined ecoregions and maritime heritage areas. I believe the 
opposition from every region to such a provision cannot be overstated. 
In the case of the OCNMS the proposed trawl ban would effectively 
abrogate the Tribes' fishing rights to continue their well-managed, 
adaptive bottom trawl fishery which is the result of transparent co-
management efforts between the Tribes and the Pacific Council.
    The proposed changes to Section 304 and 308 still require that 
fishing regulations be compatible with the purposes and mission of the 
sanctuary. Since the new proposed mission of the sanctuary is 
protection (and not use) of living and non-living resources, and based 
on the evidence of management activities in several sanctuaries that 
suggest a proactive ratcheting down of fishing activities, it remains 
unclear how any fishing in a sanctuary is safe under H.R. 6537.
    Furthermore, the new section 308 could put the Regional Councils 
even further behind the process. First, the new section adds timelines 
that heretofore did not exist, effectively forcing the Councils to 
examine NMSA issues as a priority--possibly at the expense of other 
more crucial conservation and management issues. If it cannot meet the 
deadlines the Councils lose their ability to managing fisheries 
throughout their range, a requirement of the MSA. Typically, amendments 
to fishery management plans take up to two years to complete even when 
the Council has made specific allowances in its strategic planning for 
that activity.
    In my opinion, the Secretary already has the authority under the 
MSA to issue regulations consistent with the MSA to close certain areas 
to fishing if it is deemed necessary to protect the ecosystem. However, 
there is still a need to clarify the existing relationship between the 
NMSA and MSA.
    In 2005 and again in 2008 the Regional Fishery Management Council 
Chairmen adopted unanimous positions to amend the NMSA to specifically 
exclude fishery resources as sanctuary resources and to achieve 
jurisdictional clarity by vesting federal fisheries management within 
the MSA. The House Natural Resources Committee attempted to address 
this very issue during the 2006 MSA reauthorization but Members 
deferred the debate to the NMSA reauthorization.
    I agree with the position of the Regional Council Chairmen for a 
number of reasons. First, this approach ensures that fishery resources 
are managed to achieve the greatest benefit the nation, consistently 
throughout their range, and with the best scientific information 
available. Second, the MSA has very specific National Standards, 
guidelines, scientific & economic considerations, a complete fishery-
specific committee structure, and clear requirements for public input 
that include but extend beyond National Environmental Policy Act (NEPA) 
considerations. And third, the Councils are mandated to minimize the 
impacts of fishing gear on fish habitat as a component of FMPs and were 
provided with authority to employ ecosystem-based tools to implement 
area management such as marine protected areas and special limited 
fishing zones to protect resources (See 16 U.S.C. 303(a)(7) and 303(b).
    The Regional Councils are already incorporating these EFH and 
ecosystem-based concepts into their management plans which would be 
consistent with the intent of the NMSA. There are many examples of this 
from every region, here are just a few--the North Pacific Council 
operates a full retention trawl program and has set aside an expansive 
deepwater coral protection area. The Pacific Council, through its EFH 
process, has already established discrete areas where bottom contact 
gear of any kind (not just trawls) is prohibited. The Rockfish and 
Cowcod Conservation Areas put thousands of square nautical miles off-
limits to fishing. This Council has gone one step further and 
established a committee designed to modify those areas based on new 
information. The Mid-Atlantic Council has implemented trawl Gear 
Restricted Areas and the New England Council closed the heads of 
several marine canyons to trawling for purposes of managing Atlantic 
monkfish.
    Simply put, the NMFS and the Regional Council system are designed 
and well-equipped to manage and protect fishery and ecosystem resources 
using all the tools at their disposal (incl. area management concepts) 
while the NMS system is not, nor was it ever intended to handle such a 
comprehensive task. Fisheries management is standard operating 
procedure for NMFS and the Councils using their resources of fishery 
science and statistical committees and support staff, economists, 
periodic fishery surveys, program monitoring, cooperative research 
programs, a fleet of federal research vessels, specific data reporting 
requirements, vessel trip and dealer reporting, permits and licensing 
activities, specific limited access and allocation methodologies, 
constituent services and outreach, and other pending programmatic 
changes to overfishing and rebuilding requirements resulting from the 
2006 MSA reauthorization.
    In sum, the U.S. Congress and this Subcommittee just invested years 
of hard work to substantially improve the MSA by separating politics 
from quota setting, ending overfishing, providing for enhanced habitat 
management, adding tighter controls on catch limits and accountability, 
and by specifying clear roles for advice from Science and Statistical 
Committees. In other words, the Councils operate under a very 
comprehensive, conservation-oriented set of requirements pursuant to 
the MSA. They have consistently proven the ability to deal with area 
management concepts to protect living marine resources in a transparent 
and science-based manner. There is simply no valid reason why this 
system should not be the primary tool used to manage fishery resources 
in sanctuaries.
    Madame Chair, I thank you and Mr. Brown and the Subcommittee 
members for allowing me to speak with you today regarding the details 
of H.R. 6537. I hope to continue our work with you and your staff 
during this reauthorization process.
Literature Cited
Farr, S. 2002. Letter to Mr. William Duoros, MBNMS Superintendent (cc'd 
        to Mr. Dan Basta), dated January 31, 2002; 4 pages.
Hilborn, R and C. Walters, 2008. Ecosystem Consequences of MPAs for the 
        Monterey Bay National Marine Sanctuary; 24 pages.
NOAA, 1992. Monterey Bay National Marine Sanctuary Final Environmental 
        Impact Statement, Volume II, Part IX, Section F; Responses to 
        Comments on Draft EIS, Issue 13--Regulation of Fishing. Pages 
        F-41 to F-43.
NOAA/NOS/NMSP, 2007. Our National Marine Sanctuaries 2007 
        Accomplishments Report; 7 pages.
                                 ______
                                 
    Ms. Bordallo. I will now recognize members for any 
questions they may wish to ask the witnesses alternating 
between the members and allowing five minutes for each member. 
Should members need more time, we very well could have a second 
round of questions. I will begin with myself, and I do have 
some for Mr. Dunnigan of NOAA.
    According to your testimony, NOAA's priorities for 
reauthorization of the Sanctuaries Act are: 1] to clarify the 
protective mission of the system; 2] streamline the processes 
for identifying, selecting and designating new sanctuaries; and 
3] ensure that NOAA's authorities under the Act are applicable 
for NOAA's management responsibilities at marine national 
monuments. Does H.R. 6537 address these priorities? Just a yes 
or a no.
    Mr. Dunnigan. Thank you, Madam Chairwoman. It addresses 
those priorities. As I said, we haven't had a chance to review 
all of the details, but it at least goes in those directions. 
Thank you.
    Ms. Bordallo. All right. Thank you. I have a series of 
questions, so. Will the President's recent action to lift the 
administrative moratorium on offshore energy production affect 
the system, and is this action by the President consistent with 
the NMSA, and how might this affect the marine national 
monument in Hawaii in the Pacific Ocean?
    Mr. Dunnigan. Thank you very much, Madam Chairwoman. The 
President, when he lifted that moratorium continued its 
applicability to national marine sanctuaries. So the system is 
still operational there. Specifically with reference to 
Papahanaumokuakea, the President, when he designated that 
monument prohibited oil drilling activities. So our 
understanding is that that remains in place as well.
    So we think that the President's action doesn't have any 
direct impact on the sanctuary system.
    Ms. Bordallo. Very good. All right, another question. H.R. 
6537 would enact several systemwide statutory prohibitions for 
certain activities for existing and future sanctuaries. What is 
NOAA's position on this provision of the bill, and if NOAA does 
object, please explain why these activities that are prohibited 
in national parks should be allowed in national marine 
sanctuaries?
    Mr. Dunnigan. Well, again, I think, reserving the 
opportunity to look at the specific language, we believe that 
the better approach is to look at each of the sanctuaries in 
its particular context and then craft the appropriate 
regulatory scheme that is best applied to that particular area. 
So in general we would prefer not to see broad prohibitions 
that apply across the board to a lot of different areas.
    We think this program works best when the prohibitions can 
be tailored to the needs of the particular area.
    Ms. Bordallo. Each sanctuary. Does NOAA support a 
requirement to conduct an inventory of marine ecoregions and 
maritime heritage resources and to develop a new site selection 
list for potential designations of new sanctuaries?
    Mr. Dunnigan. We think that it is time for us to have an 
opportunity to consider broadly the needs of the system and 
that is one way of doing it, so that is consistent with that 
provision that was in our testimony.
    Ms. Bordallo. All right. I have two other questions. Does 
NOAA support having a goal to expand the system to include 
representative sites of each marine ecoregion and a full range 
of maritime heritage resources by the year 2030?
    Mr. Dunnigan. We don't have a position specifically on that 
particular part of the bill, but let me say that one of the 
things we have to be careful to consider here is that the 
resources that we have available to protect these places are 
consistent with the requirements that we are laying on 
ourselves.
    So one of the things we have to think about is are we going 
to be able to continue to maintain the protections for the 
whole system as we try to move forward and provide broad 
protection for all these types of resources around the country?
    Ms. Bordallo. Very good. My final question. The bill would 
authorize an annual funding level of $100 million by 2013 for 
implementing the NMSA and for construction projects. Now, does 
NOAA feel that this amount is sufficient given the projected 
growth of the system in that timeframe? I expect the answer to 
be no.
    Mr. Dunnigan. I think the answer that the administration 
always has for these kinds of questions is that as we work out 
appropriations bills we have to evaluate every year what the 
requirements are against all of the other requirements that the 
country faces and provide the appropriate funding.
    Ms. Bordallo. So you don't feel the $100 million would be 
sufficient?
    Mr. Dunnigan. No, I didn't say that.
    Ms. Bordallo. Thank you very much. Now to Mr. Gudes. I want 
to thank you for your discussion regarding how the proposed 
mission statement could be amended to better preserve 
recreational opportunities. Why do you believe, however, that 
an explicit mission to require NOAA to manage the sanctuary 
system for the long-term protection and conservation of the 
resources would result in a loss of recreational activities or 
opportunities?
    Mr. Gudes. I suppose there is probably two questions. One 
is if what the bill is doing is saying what is the purpose, 
what is the mission for what a marine sanctuary is, if, in 
fact, human use, people use of the sanctuary, it would make 
sense to have that in the statement, just in the same way some 
other parks, for example, national parks have it in.
    Second, I think I am mindful of Rick Marks comments that if 
you look at the history of the Marine Sanctuary Program, 
designations have started and then over time restrictions have 
been put in place that were not contemplated by the 
stakeholders when they supported the designation of the 
sanctuary.
    Those are all human uses that I am talking about, and I can 
point to a number of those, but I think Rick was talking in 
terms of commercial fishing. I can point out the use of 
personal watercraft on the west coast, I can point out the no 
takes zones have been put in place. It is not clear to me that 
when those things came into effect that stakeholders at all 
knew that was what they were agreeing to.
    Ms. Bordallo. Is that not covered through the management 
plan reviews at this----
    Mr. Gudes. The uses do come about through the management 
plan review, and in each case at some point the people who are 
most involved in a sanctuary have put forward a proposal that 
often is advertised in the local media for stakeholders to come 
forward. It doesn't mean that all the members of the public who 
are affected understand that each time it happens.
    Usually they find out that they should have been involved 
earlier or might have been involved earlier when a restriction 
comes into place. I can tell you coming into this industry I am 
aware of restrictions that came into place that had the 
industry known when they were first proposed, it would have 
come forward forcefully and not agreed.
    Ms. Bordallo. All right. Well, I will have a few additional 
questions but right now I would like to recognize the gentleman 
from New Jersey, Mr. Saxton.
    Mr. Saxton. Thank you, Madam Chairwoman. Mr. Dunnigan and 
Ms. Spruill, I am sure you were listening as intently as I was 
to the concerns, if you will, that were raised by Mr. Gudes and 
Mr. Marks about the bill. I noted three in particular that I 
would like to ask you to express your views on.
    First is, as pointed out by Mr. Marks, there is a general 
acceptance of the notion that scientific information should be 
used as a basis for our policy rather than policy being a goal 
all of its own. Mr. Marks is concerned that the integrity of 
the scientific approach be maintained. That is number one. 
Second, that as the bill is currently written it may be biased, 
my word, in terms of expansion rather than maintaining and 
managing the current system.
    Third, that there is an emphasis on protection rather than 
use. I think that Mr. Gudes at least contributed to the last 
part in terms of the opportunities for fishing and so on, so if 
you could just have a conversation with us about your 
perspective on those three areas.
    Mr. Dunnigan. Yes, sir. Thank you very much. I would be 
pleased to address those. I think, first of all, we recognize 
that national marine sanctuaries present one of the really 
great opportunities for doing important scientific research in 
the oceans. They are identified on the basis of particular 
values that each of the sanctuaries represents.
    It is important to understand how global processes, climate 
change and other things that are happening affect these places 
and what we can learn from that for application elsewhere. So 
we believe in a strong scientific base for the National Marine 
Sanctuary Program, and we believe that science, and good 
science, the best available science, needs to underpin the 
actions that we take.
    We also believe that that science is a part of what is 
brought out in the public discussion processes that we have 
when we consider regulations, when we do designation documents. 
So we feel we have a fairly open process, we believe that we 
are reflecting the best available science and we don't have any 
difficulty with that being an underpinning for the program.
    I think there is a focus in our position from the 
administration's standpoint on clarifying that the particular 
requirements for sanctuaries are more focused on protection and 
conservation than they are on management. We are not 
necessarily here just to manage resources in the same sense 
that we manage fisheries to try to achieve an optimum yield.
    There is an identification that these are special places 
that deserve the kind of conversation and protection, but, 
again, sometimes we get the impression that people are thinking 
that we generate all of this in our offices in Silver Spring 
without having an opportunity to sit and spend a lot of time 
with stakeholders.
    If you hear the comments that you have heard from the 
Thunder Bay folks, including the mayor who was here at the last 
hearing, you hear people talking about how the Sanctuary 
Program was something that once they got to understand it and 
the values that it protected in their local areas, that it was 
important to move forward with.
    The third thing I would say about fishing is that in the 12 
national marine sanctuaries that we have, leaving 
Papahanaumokuakea off for the moment because that was the 
President's action, in the 12 sanctuaries we have, we allow 
fishing in every one of them. We allow commercial fishing, I 
believe, to some extent in every one of them.
    So if you were to go out to the Channel Island Sanctuary 
that is in Ms. Capps' district, you would see a series of 
panels on the wall of the office that says uses of marine 
sanctuaries. We have recognized from the beginning that 
national marine sanctuaries are special places for people.
    Although we believe the principal focus needs to be on 
conservation and protection, we recognize that these are 
valuable places for people to use as well.
    Ms. Spruill. Thank you, Congressman, for your very 
thoughtful questions. I concur, I have to, with Jack that 
science must absolutely anchor all decisions related to 
sanctuary designation. I think we have to recognize that 
America's future depends on the health and productivity of our 
oceans.
    This bill, therefore, makes it really clear that the 
primary purpose of the sanctuary system is the long-term 
protection and conservation of ocean resources. Now, that said, 
we also understand that fishermen are facing a number of 
challenges from diminishing fish populations and rising fuel 
costs, and we see the sanctuary system providing us with an 
opportunity to really invest in the future of a healthier 
ocean, and therefore, all the livelihoods that depend on that 
ocean.
    As Jack said, we can't forget that every single sanctuary 
is open to fishing and the vast majority of the waters within 
those sanctuaries are open to fishing, and at the same time we 
have to acknowledge that fishing is one of the greatest impacts 
to ocean ecosystems. So I like to look at sanctuaries as sort 
of an insurance policy for both the future health of the ocean 
and its productivity and the livelihoods that depend on it.
    Mr. Saxton. Thank you, Madam Chairman. Thank you very much.
    Ms. Bordallo. Thank the gentleman from New Jersey, Mr. 
Saxton. Now the Chair recognizes the gentlelady from 
California, Ms. Capps.
    Ms. Capps. Thank you very much, Madam Chair. NOAA seems to 
be on the hot seat for questions. Right off the back this 
morning, Mr. Dunnigan, I am going to start out with questions 
for you. I heard you say something about a second round so if I 
don't get to it, I have a couple of other people I want to pick 
on as well.
    To continue, Mr. Dunnigan, the conversation or testimony 
that has already occurred on fishing, I want to ask your 
opinion about the National Marine Sanctuary Program and 
expertise in fishing management. Do you believe that the 
sanctuaries have the kind of expertise in fishing management to 
make decisions on fishing issues within their boundaries?
    Mr. Dunnigan. Well, I have two answers to that question. 
First of all, I think we have an immensely capable staff that 
has broad capacity and capability to deal with a wide range of 
ocean issues, including those relating to living resources. The 
other thing I would like to say is that this is a NOAA program, 
so the National Marine Sanctuary's office is also working 
closely with the offices of the National Marine Fishery Service 
and of the regional fishery management councils.
    In many cases we have excellent working relationships with 
the regional fishery management councils on a continuing basis. 
So from the NOAA perspective, we believe that we have the 
opportunity to bring a number of resources and capabilities 
together to try to address these issues.
    Ms. Capps. Thank you. You mentioned already my, not mine, 
but our Channel Island Marine Sanctuary, and I know this to be 
the case. We have evidence of that in our sanctuary as well.
    Other witnesses have testified, Mr. Dunnigan, that a 
provision in H.R. 6537 to increase the period of management 
plan review from five to seven years or to require subsequent 
reviews every 10 years instead of every five years, that this 
provision would reduce oversight and slow down the process to 
make changes to plans.
    There is another side to it, too, I believe. I want to ask 
you if expanding the period of review would make the process 
more inefficient.
    Mr. Dunnigan. Ms. Capps, I would not say that it would make 
the process more inefficient. I think right now one of the 
problems that we are having is that the amount of work that 
gets associated with doing each of these is sufficient enough 
that it is hard for us to be able to get to it all.
    So, actually, if the law gets written in a way that 
requires us to do it at least every so many years, then we have 
an opportunity in the interim times to be able to deal with 
particular issues as they come up, and yet, give us an 
opportunity to schedule these in a way that are consistent with 
the resources that we have available.
    Ms. Capps. Since we have in our sanctuary completed that 
five year plan, it is strenuous and I know from personal 
experience what you are talking about. To follow-up, what else 
could be done, do you believe, to make management plan review 
process more efficient? Do you have other ideas that we could 
include?
    Mr. Dunnigan. We are looking at a number of things and we 
have been talking to the Committee staff about them. Until we 
get an approved view officially from the administration, it is 
hard to say what those might be. One of the things that we 
think is extremely important is to continue the strong 
engagement with the public through our advisory councils.
    As you saw in the process in the Channel Islands, it was 
open, it gave us an opportunity to talk not only with the 
industry, but also with the state. Especially in the four 
California sanctuaries where we have such a close alignment 
with the state itself, it gives us that opportunity to work 
together.
    Ms. Capps. One more. I think I have time. At the Channel 
Islands, as you referred to this, the SAC has utilized issue 
specific working groups to improve the public process. They 
also help keep the SAC updated on emerging issues, almost like 
to anticipate problems, some of these being aquaculture and 
offshore renewable energy.
    I have seen personally that these have been very helpful. 
You suggest removing the 15 member limit on certain advisory 
SACs. I know that at the Channel Islands and Monterey Bay 
sanctuaries we each have 20 members each. Why do you think this 
change might be useful or necessary?
    Mr. Dunnigan. As we move forward with these, we have to 
make sure that we have the opportunity to get the diverse 
representation that is appropriate for that particular 
sanctuary. The kinds of people that we need are different in 
California than they are in the Great Lakes or than they are in 
the south Atlantic where we have the Grays Reef National Marine 
Sanctuary.
    So we would like to have the opportunity to be able to have 
sufficient size on those advisory councils so that we can reach 
out through the board diversity of interests in each case.
    Ms. Capps. Thank you. Madam Chair, I want to question a 
couple more witnesses but I notice the red light is on and I am 
going to take you at your word about a second round.
    Ms. Bordallo. Thank you. I want to assure the gentlelady 
from California that we will have a second round of questions. 
At this time I would like to recognize the Ranking Member, Mr. 
Brown from South Carolina, for any questions he may have.
    Those standing in the back there, if you would like to sit 
around this table here, you are more than welcome. Thank you.
    Mr. Brown. Welcome. Ms. Spruill, are you from South 
Carolina?
    Ms. Spruill. I am not from South Carolina.
    Mr. Brown. I want to let you know that in my district we 
have Spruill Avenue.
    Ms. Spruill. We do. And there is a Pointer and Spruill law 
firm, too.
    Mr. Brown. Is that right?
    Ms. Spruill. Yes. No relation.
    Mr. Brown. OK. OK. Let me begin my questioning I guess with 
you. Does your organization support the ban on oil and gas 
explorations and development in all sanctuaries?
    Ms. Spruill. I am sorry, could you repeat the question?
    Mr. Brown. Does your organization support the ban on oil 
and gas explorations and development in all of the sanctuaries?
    Ms. Spruill. Yes, and we at the same time recognize that, 
you know, we all feel the pain at the pump. Congress has to be 
focused on a real solution. Drilling our way out of this one we 
don't think is the solution. Lifting the moratorium will do 
nothing to lower today's gas prices, especially when there are 
faster, and cheaper, and safer plans in investing in clean, 
renewable energy, like solar, and wind, and alternatives to 
gas.
    Ms. Bordallo. Would you come closer to the mic, please?
    Ms. Spruill. I am sorry.
    Ms. Bordallo. Yes.
    Ms. Spruill. We need to move this between us. Thank you.
    Mr. Brown. Would you further maybe explain that as why you 
would be against it?
    Ms. Spruill. Against drilling in the sanctuaries is how I 
understood the----
    Mr. Brown. Yes, ma'am, that is right.
    Ms. Spruill. Because the----
    Mr. Brown. Is it environmental concerns or what would be 
your major concern?
    Ms. Spruill. Well, we are dealing with a vulnerable ocean 
ecosystem that is facing threats from a number of sources. It 
is an already vulnerable system that we need to be as resilient 
as possible to sustain life on this planet. You know, things 
like pollution, and habitat destruction and overfishing are 
already creating a vulnerable ocean ecosystem.
    So it is not just the drilling we have to be concerned 
with, it is the whole system, the whole process from extraction 
to transportation. When you are looking at things through an 
ecosystem lens, which this sanctuary act is trying to do, we 
have to look at the sort of cumulative impact of all of these 
stressors. So it is more than just environment. I think that it 
is a combination.
    Mr. Brown. OK, but aren't you aware that other countries 
are drilling offshore, and even in the United States off the 
coast of Louisiana, off the coast of Texas and off the coast of 
California we are drilling? I think the track record has been 
pretty good.
    Ms. Spruill. Well, again, it is we have to look beyond the 
drilling. It is not just about the drilling, it is the whole 
system from extraction to transportation. Look at the spill in 
Louisiana just yesterday.
    Mr. Brown. That was transportation, right?
    Ms. Spruill. Right.
    Mr. Brown. Right. So then you would be in favor of closing 
the sanctuaries for transportation of tankers across the 
sanctuaries?
    Ms. Spruill. No. I was responding specifically to your 
drilling question.
    Mr. Brown. I know, but I was responding to your question 
about the barge that----
    Ms. Spruill. If you look at drilling, when we look at oil 
drilling, I think we have to look at the whole system. What we 
are talking about is an ecosystem-based approach to managing 
our oceans. The sanctuaries bill, you know, makes it clear that 
the primary purpose of the sanctuary system is the long-term 
protection and conservation of our ocean ecosystems and 
resources.
    It may be that there are some uses that are not compatible 
with that long-term comprehensive view, but we have to consider 
sanctuaries as an insurance policy. We have to invest in the 
health and future of our oceans because otherwise, the lives 
that depend on those are lost anyway.
    Mr. Brown. I guess that is the big argument we have today 
with the price of gasoline at $4 a gallon and, you know, the 
very poorest of our country, they are suffering the most 
because most of those people live outside of the region where 
they have jobs and they have to transport back and forth on a 
daily basis. I know it is hurting in my district. That is the 
reason.
    I guess my next question would be then does your 
organization support the designation of a monument off the 
coast of South Carolina?
    Ms. Spruill. I have not been briefed on that specific 
question and so I would need to get back to you with a specific 
answer to that.
    Mr. Brown. OK. Is there any place outside the monuments or 
the sanctuaries where it would be OK to drill?
    Ms. Spruill. We think we are not going to drill ourselves 
out of this problem. We need to look for alternative energy 
sources.
    Mr. Brown. OK, but in the meantime, I think we are looking, 
you know, for alternative sources, and, you know, windmills and 
whatever else is out there, nuclear power, and hydrogen power, 
and whatever else, but we are using 21 million barrels of oil a 
day and we are getting in some 13 million barrels from people 
that don't like us and the price keeps going up every day.
    We are having the greatest transfer of wealth in this world 
today than we have ever had before where some $700 billion a 
year is transferred from the wealth of the United States to 
these countries that supply our oil.
    You know, I see that we live on the same planet where 
everybody has got something, a mutual responsibility, and yet, 
we are insisting almost that Iraq and some of these other 
places continue to drill and we don't want to share in that 
level of responsibility.
    Anyway, thank you, Madam Chair. I am sorry I used up all my 
time, too, but it has been a good exchange.
    Ms. Spruill. Thank you, Congressman.
    Ms. Bordallo. Thank you very much to the Ranking Member, 
the gentleman from South Carolina, Mr. Brown.
    Mr. Marks, I have a few questions for you. You raised 
rather strong concerns about the establishment of marine 
protected areas, including marine reserves, in some sanctuaries 
that were established to protect sanctuary resources from 
fishing activities, yet, you go on to note several examples 
where regional fishery management councils have utilized the 
same tools to the same effect.
    So as a general principle, you are not opposed to the use 
of marine protected areas or even the use of marine reserves, 
is that correct?
    Mr. Marks. As a general principle, you are correct, I am 
not opposed to those. What I am concerned about, Madam Chair, 
is to implement those in situations where the designation 
documents did not indicate that they could be used to curtail 
fishing.
    The council process has a very scientifically driven, 
clear, transparent process to implement those protected areas, 
and the councils are actively doing that all around the 
country, but they are science-driven, and that is what I would 
support and that is what my clients operate in.
    These other issues about marine protected areas within 
these sanctuaries were not what many people had anticipated 
when the system was brought about. It gets a lot to the issue 
of science, ma'am.
    If you listen to Mr. Dunnigan's answer to the question 
about science, he is very skillful in the response because, 
yes, the sanctuaries can be used to do a very good science on 
climate research, et cetera, but when we talk about science, we 
mean to apply that to the fishery management decisions, to the 
marine protected area decisions.
    That is very different than doing scientific research. So 
you are correct, I do support the concept of those MPAs, but I 
support a process that determines that they are necessary.
    Ms. Bordallo. All right. Now, your concern is more about 
who controls the process, is that correct? They are under the 
same department, am I, Department of Commerce?
    Mr. Marks. You are absolutely correct, so what we do have 
is competing departments, ma'am, but there is something very, 
very important I need you to understand because we haven't been 
able to get to the kernel of why this is a problem.
    The problem is you have two acts that are in conflict 
because, and I think someone may have pointed it out, one, we 
talk about optimum yield, managing use, greatest benefit to the 
nation, actually having people harvesting for protein for all 
of us. The other act in the same area is now being recast to be 
more protectionary and that is why we have the rub, and that is 
why I am advocating that consistent with Magnuson, throughout 
the range, species are managed that way.
    The sanctuaries should certainly be able to work in 
consultation with the National Fishery Service. If there are 
areas that need to have MPAs in them, then let us use the 
science process and the council process to put those in 
wherever they are required.
    Ms. Bordallo. All right, but under existing law and my 
particular bill, the councils would still have the primary 
responsibility for drafting fishing regulations, so what is the 
problem?
    Mr. Marks. Well, they still would, ma'am, but there is a 
couple of things. Number one is you change the timeframes on 
the council to be able to act, and, quite frankly, you tighten 
them up a bit faster than the council system normally operates.
    As I indicated, you, having been a council member before, I 
know how, I was going to say how fast, but how slow sometimes 
the council process grinds forward because it is so 
comprehensive, so what you have done is you have tightened up 
the timeframes for them to act.
    Not only is it problematic from a time perspective, but 
what if the council has so many other issues that are pressing 
on them from a fiscal standpoint and from a planning standpoint 
that if the sanctuary turns around and says we need regulations 
today in this sanctuary, then the council is going to be forced 
to drop everything else on its agenda that it plans for a year 
in advance, ma'am, in order to be able to react.
    If they can't react in time, then it defaults to Mr. 
Dunnigan to do the fishing regulations. As I indicated, we have 
no scientific process to depend on.
    Ms. Bordallo. All right. Then the Committee would be 
interested to know what kind of timeline are you looking at 
here, I mean, to be reasonable?
    Mr. Marks. OK. That is a fair question keeping in mind, 
though, that I am still putting my chips with the council. To 
answer your time question, you know, councils typically for a 
full-blown amendment, when a council has already planned it in 
their structure to get to an amendment it takes upwards of 
about two years to do a full-blown fishery management plan 
amendment.
    If you want to do a faster plan amendment, called a 
framework amendment, you can actually do that and probably get 
it off the dime in about a year and a half. There are so many 
requirements, NEPA, et cetera, that it takes a long time to 
make that happen.
    So I think, and, again, I only had a few days with your 
bill, ma'am, but I think that your bill would allow the 
council, if you told them today, six months to finish their 
work and they could extend that time period once for three 
months, if I am correct. The staff is nodding his head.
    That is not enough time for the councils to do what they 
would have to do, not even talking about still the conflict 
between the two statutes.
    Ms. Bordallo. All right. I have another question for you, 
Mr. Marks.
    You raise significant concerns that the sanctuary system 
has evolved to a more protective ecosystem management approach 
with little in the way of standard scientific peer-review and 
transparent public process, yet, in looking at the record at 
the establishment of the system of marine reserves at the 
Channel Islands National Marine Sanctuary, where is that list, 
I see a very comprehensive public process that included over 44 
sanctuary advisory councils or working group meetings and other 
public meetings or hearings, and this was just for the period 
between 1999 and 2001.
    Forty-four. So I would say that is pretty thorough. 
Furthermore, the full process took eight years to complete and 
still left 78 percent of sanctuary waters open to fishing 
activities. So just exactly how much public process do you 
believe is necessary before NOAA is allowed to take a 
management action in a marine sanctuary?
    Mr. Marks. Fair question, Madam Chair, and I don't 
denigrate the public process that has gone on to implement 
these sanctuaries. To designate them and implement I know it 
takes a long time, I know there is tremendous amounts of 
discussions.
    My issues tend to be not so much with actually where you 
draw the box on the nautical chart, but then what happens from 
the designation document standpoint moving forward? That is 
where a lot of my concerns and a lot of my clients' and my 
associates have raised concerns is that there tends to be a 
feeling that the advisory process is being dictated to rather 
than more involved in the actual implementation of regulations, 
and there is a difference.
    You mentioned the Channel Islands. I have been on a 
commercial squid boat in the Channel Islands, it is a beautiful 
place, I have kayaked there, people are using it, I do 
understand we are fishing, but let me give you an example just 
right near there. The designation documents for the Monterey 
Bay Sanctuary were clear, and Mr. Farr was clear very far back 
in the initiation of that, that we wouldn't manage fishing.
    Well, right now, 64 percent of the Monterey Bay Sanctuary 
is estimated to be off limits to fishing when people didn't 
think that that was going to happen at all in the beginning. So 
there is public process, you are absolutely right; however, in 
certain instances there is concerns about whether there is 
enough of it and whether the standards and the science apply.
    Ms. Bordallo. Thank you, Mr. Marks. My time is over and I 
am going to be recognized Mr. Wittman. I would like to ask Mr. 
Dunnigan one quick question. Mr. Marks describes the two 
statutes, meaning Magnuson and the Sanctuaries Act, are being 
in conflict. Do you share his idea on that?
    Mr. Dunnigan. No, ma'am, we don't share that view at all. 
We think that there are two statutes that can work together, 
and, in fact, in almost all cases, do work together well.
    Ms. Bordallo. That complement each other. All right. Thank 
you. Now the Chair recognizes Mr. Wittman.
    Mr. Wittman. Thank you, Madam Chairwoman. I appreciate the 
time. I would first like to welcome Timothy Sullivan, the 
Director and CEO of the Mariners' Museum. Prior to joining the 
Mariners' Museum, Mr. Sullivan also served as President of the 
College of William and Mary for 13 years.
    The Mariners' Museum is located in Newport News, Virginia, 
and for those who don't know, the Mariners' Museum does a great 
job of displaying and interpreting maritime history, and most 
notably, the history of the great Civil War naval battle 
between the ironclads U.S.S. Monitor and C.S.S. Virginia. So, 
Mr. Sullivan, thank you for joining us today. I appreciate 
that. It is good to have you here.
    I would like to begin with Mr. Dunnigan with a question. 
Mr. Dunnigan, as you know, anglers play a very important role 
in the conservation of our marine resources and namely through 
the license fees and excise taxes that they pay on fishing 
tackle.
    However, I know that many recreational anglers are 
concerned about management practices that might restrict public 
access and the implementation of no take areas. How does the 
administration plan to proceed with the establishment and 
management of marine protected areas and other management 
measures, and how will public access for recreational purposes 
be ensured?
    Mr. Dunnigan. If I can answer the second part of your 
question first, the correct process for ensuring the 
appropriate use of a marine protected area, or a sanctuary, or 
any other area, is really through a broad public process that 
gives transparency and gives folks an opportunity through some 
regularized review to be able to have their views heard.
    We recognize that recreational fishing is an important 
value for America, we recognize that the sport fishing 
community has been among the strongest supporters of good 
fisheries management and of good environmental protection, so 
we think that the right way to do that is to focus specifically 
on the process.
    Mr. Wittman. Very good. As related to the process, how do 
you see the application of science playing in, both the process 
of public hearing and in the decisionmaking side?
    Mr. Dunnigan. Well, we begin with our own scientists in the 
sanctuary program that are associated with each of the 
individual sanctuaries, and they have extensive collaborations 
with other scientists in NOAA, specifically the National Marine 
Fisheries Service, we work with scientists that work for the 
regional fishery councils, for other Federal agencies and for 
the states.
    We have a strong recognition of the collaborative effort 
that we need to do and recognize the capabilities of the 
states. So we really begin with science when we are building 
our record and trying to make a decision as to what the 
appropriate things to do in a particular sanctuary might be.
    Mr. Wittman. So what you will be doing is integrating the 
public information or the public process and the information 
you gain there, along with the science that you gain from your 
scientists, others, and other Federal agencies in the states?
    Mr. Dunnigan. Sir, I would say that, but I would also point 
out that an important part of a program like this is to make 
sure that we are communicating the science through effective 
public education and outreach programs.
    Public education and outreach is one of the strongest 
underpinnings of the National Marine Sanctuary System, so we 
need to be able to use these programs to take the opportunity 
to get that science into the hands of the people whose 
resources these are so that they can consider what the 
appropriate uses and protections that are necessary for these 
places should be.
    Mr. Wittman. OK. Like to drill down a little bit further 
into the decisionmaking process. Can you tell us how fisheries 
management or the fisheries management provisions of the 
Magnuson-Stevens Act mesh with the requirements of the National 
Marine Sanctuaries Act, and how would H.R. 6537 change 
authorities in the Sanctuaries Act?
    Mr. Dunnigan. Under the current law, and I believe under 
H.R. 6537, the principal responsibility initially for crafting 
individual fishery regulations rests with the fishery 
management councils. I haven't studied all of the details, but, 
as I understand it, H.R. 6537 I think makes that process a 
little bit clearer as to how that is supposed to happen and 
stages it better.
    You know, that process is going to work well when we have 
the sanctuary staffs, the fishery staff and the council staff 
all working together much earlier in the process. This should 
not be a situation where the sanctuaries program decides that 
it needs a fishing regulation and calls up the fishery council 
and says come back in 90 days.
    We have to have that collaboration working from the very 
beginning. Sanctuary designation processes take many years as 
well, along with fishery management processes, and it is our 
responsibility to make sure that we have them working side by 
side all the way through.
    Mr. Wittman. Just one other question. Maybe a little more 
elaboration. I know that the Magnuson-Stevens Act has a fairly 
proscriptive process for making decisions. Do you see that 
meshing with the process with the Marine Sanctuaries Act? Do 
you see it occurring separately? How do you envision that? Let 
us say that there is a decision process that has been gone 
through say with a species, and then there is an effort to put 
in place a marine sanctuary.
    How do you see that process either meshing or reconciling 
if there is a potential conflict in that decisionmaking?
    Mr. Dunnigan. For about the last 18 months we have been 
doing a very detailed analysis of the legal requirements of the 
two processes and how they work together. That is almost 
completed and ready to be shared. And so that will give, you 
know, the sort of I think very technical details from the legal 
standpoint that you are looking for.
    Let me give you just an example because this is an area 
where we have really tried to do a better job over the last 
couple of years to have the sanctuary staffs and the fishery 
management staffs in NOAA and the councils, you know, working 
better together. The Chairman of the Sanctuary Advisory Council 
for the Grays Reef Sanctuary is an employee of the National 
Marine Fishery Service.
    The director of the Channel Islands National Marine 
Sanctuary staff used to work for the National Marine Fishery 
Service, as did I. So what we have been seeing is a much 
greater sense of collaboration across NOAA really in this 
administration on programs, and that is something that we can't 
ever say is done. We have to keep working to make that more 
effective.
    Mr. Wittman. Thank you, Mr. Dunnigan. Thank you, Madam 
Chairwoman.
    Ms. Bordallo. I thank the gentleman from Virginia, Mr. 
Wittman. Now the Chair recognizes the gentlelady from 
California, Ms. Capps.
    Ms. Capps. Madam Chair, I do have questions for Mr. Kroll 
and Mr. Marks, but I want to give Mr. Dunnigan a chance to 
respond, I know you have been talking a lot, but you engaged 
Mr. Marks, Madam Chair, in an interesting conversation in which 
I believe I heard Mr. Marks suggest that the sanctuary program 
does not engage in public processes that are science-based or 
transparent.
    I want to ask you, Mr. Dunnigan, for a brief response to my 
question. What happens when decisions are made after the 
designation process is completed? How does the public 
participate in those instances?
    Mr. Dunnigan. Well, on a continuing basis people are 
participating through the sanctuary advisory council process, 
and that is open. We have continuing membership infusion so 
that we get a broad view of interests. The advisory council 
process is very engaged and continuing to review how the 
sanctuaries are being implemented, so there is open discussion.
    I can tell you that they are not all meetings where 
everybody sits around a table and agrees with each other. Those 
are a lot of fun sometimes. I can tell you that at my level I 
hear from those people after those meetings are over with. So, 
you know, I spent 25 years in the fishery management process. 
They are hard.
    I recognize the hard work that my colleagues in fisheries 
do, and I am committed, and we are all committed in NOAA to 
working better together.
    Ms. Capps. I want to tell you and just make this as an 
aside, the process I watched firsthand at Channel Islands, and 
I have bragged about that advisory committee to almost every 
other public/private partnership that I have ever witnessed, it 
was the one, and I won't say bloody, but it was a very hands on 
and strongly held opinions where they sat around the table 
until they ironed out every one of the areas where they could 
agree on.
    One of the most publicly driven processes I have ever 
experienced. It was initiated by the recreational fisheries. 
Completely driven by science all the way through. I think it 
is, at least my experience, a very remarkable process.
    Now, Mr. Kroll. I have never had the privilege of visiting 
your Thunder Bay Sanctuary. The pictures are beautiful. Last 
weekend I was at Monterey Bay Sanctuary Visitors Center in 
Cambria, California, my district, celebrating a second 
anniversary. I am always impressed by the number of businesses 
from my area and the surrounding around the sanctuary that 
support it.
    The sanctuary has developed amazing partnerships with local 
lighthouse and maritime-related associations all to enhance 
tourism, which they can tell you it has. I am sure the Thunder 
Bay Sanctuary has had some positive impacts on your area as 
well. Just mention a couple of those in a brief response. I 
want to follow it up with another question.
    Mr. Kroll. Well, the diving community certainly appreciates 
the efforts of the sanctuary in buoying wrecks in such a way 
that they are a little bit safer to dive on, and it is a little 
bit more reliable and not harmful to the wreck by not attaching 
to them, so I think we are getting a better feel for that.
    As we progress buoying different wrecks and making that 
available, it makes for a much safer environment to dive in, 
and so we are getting more divers coming to the area. The 
sanctuary itself, having the Maritime Heritage Center now, 
which has just opened, is drawing nondiving community to the 
area.
    It is amazing the number of people that we have coming 
through. I mean, it is more than we could have possibly 
anticipated. The whole sanctuaries program for our area has 
been just an amazing effort of cooperation between government, 
private people and everything to get this thing motivated and 
going. It is just, you know, a tenfold kind of thing that is 
going on as far as the use.
    The educational ramifications of our sanctuary just amazes 
me. We have had Dr. Ballard there doing some research, and we 
put things together with, you know, live broadcasts and that 
kind of thing.
    Ms. Capps. Can I get you to segue to a part of this that I 
find very fascinating? You have spent a lot of time there and 
you represent it well, some of the changes in our Great Lakes 
in terms of invasive species. Have you observed this change 
over time, and is that a part of this educational process you 
are describing as well?
    Mr. Kroll. Yeah. This is kind of a good thing, bad thing. 
You know, we have 185, I believe, invasive species that have 
come into the Great Lakes since we have opened the canal. Some 
of those things maybe are good, some of those things are bad. I 
don't know if we understand all that yet.
    Good thing I guess is that the visibility in our Great 
Lakes has greatly increased. What ramifications that has as far 
as warming the waters or whatever has yet to be studied. Bad 
thing about a lot of it, which are the zebra and quagga 
mussels, are that they manifest themselves by covering up the 
wrecks.
    Even though these pictures show wrecks, which are, from a 
distance they look really great, some of the artifacts are 
covered up by these mussels and in some ways it is not as good, 
but when you get down there and you have 100 feet of 
visibility, where back in the 1960s when I dove these wrecks we 
were lucky to have four and five feet of visibility, those were 
considered good days.
    Now, if you have less than 30, you are complaining about 
it. So there are pros and cons to all that. Where it is going 
to go, to some degree we can't control anymore, but certainly 
studying their effects is important.
    Ms. Capps. Thank you. Madam Chair, I know my red light has 
gone on, but since I am the last speaker, could I ask Mr. Marks 
one question?
    Ms. Bordallo. Go ahead.
    Ms. Capps. Do you mind? I just wanted to refer in your 
testimony, Mr. Marks, to the statement that you made that 
scientists seem to be split on spill over as a benefit of 
marine reserves, but anecdotally, I can tell you right off 
Santa Barbara, Channel Islands National Park, we see 
anecdotally every day fishers fishing the line.
    They know exactly the sanctuary line ends because they can 
see the number of fish returning and it is providing a much 
better catch with them. Why should not this be considered a 
positive affect of marine research?
    Mr. Marks. Let me clarify, Ms. Capps. I didn't mean to 
indicate that it never works. As a fifth year biologist myself 
having worked in fisheries, I just wanted to make sure that it 
was clear in my written testimony that people understood that 
there is a lot of debate still ongoing about the positive 
benefits of some of these areas.
    That is only the point that I was trying to make. I 
certainly would think in some areas with species that are more 
ventrically oriented or structure oriented where their larvae 
are retained, I would certainly agree with you that in some of 
those instances it would work. Whether it repopulates adjacent 
areas in all cases, there is a lot of that that depends on 
particular case by case situations.
    So in some instances, I think you are absolutely right, in 
others, I am not convinced and others in the scientific 
community. I just still think it remains a debate. That is all.
    Ms. Capps. All right. Fair enough. We need to have another 
hearing, Madam Chair. I yield back.
    Ms. Bordallo. I think the gentlelady from California would 
remind the members that there are four votes coming up between 
12 and 12:15. However, being a representative from a territory, 
I only vote on amendments, so I will keep this going.
    I have a question here for Mr. Gudes. You raised a concern 
with provisions in the bill that would direct NOAA to complete 
a classification of marine ecoregions and also direct NOAA to 
work toward the goal of designating new sanctuaries 
representative of the full spectrum of marine ecoregions of the 
United States.
    Now, why is this inventory, which would be designated by 
NOAA in consultation with all relevant stakeholders, a problem?
    Mr. Gudes. Well, I think our focus is that where NOAA 
should be investing additional resources that the Committee is 
recommending should be on capacity building in the existing 
sanctuaries before going and creating additional sanctuaries. 
As far as ecosystems, beyond that, I would have to get back to 
you and focus a bit more on the study that you are talking 
about.
    Ms. Bordallo. All right. We would appreciate that. Also, 
why is the goal of designating new sanctuaries to capture the 
full range of marine ecoregions a problem when currently the 
same type of goal exists for the National Estuarine Research 
Reserve System?
    Mr. Gudes. Well, I think part and parcel to this discussion 
today, which was kind of before when Rick was talking and I was 
talking, is that the flip side of the comment before about only 
28 percent of the Channel Islands is closed to fishing is that 
as the system increases that means that there is 100 percent of 
all those areas that are open to recreational fishing now, and 
whether it is 28 percent, or 50 percent, or 100 percent, that 
means that what the Committee is contemplating or the NOAA 
Marine Sanctuary Program is contemplating is additional fishing 
closures.
    As I tried to say at the beginning of my statement, 
geographic-based management and no take zones is not something 
that our industry supports at all. I hope that is clear. Madam 
Chair, can I also? Earlier you had asked me about why I thought 
that there needed to be a focus on balanced use and human use 
of the sanctuaries.
    This is a reauthorization bill, so it is pivoting off of 
what already exists. As I tried to point out in my testimony 
before, the reauthorization eliminates the current law which 
provides for facilitating public and private uses of 
sanctuaries.
    So I am not allowed to ask questions of the dais, but it 
seems that the Committee has made a decision to eliminate that, 
and, you know, we are strongly arguing no, that that side needs 
to be put into the bill, not the way it is drafted now.
    Ms. Bordallo. Yes. Well, when you reauthorize something, 
you know, you may add or subtract from the original.
    Mr. Gudes. Yes, ma'am. You do the laws, we don't.
    Ms. Bordallo. We will confer with the Committee on that. 
Mr. Kroll, I have a question for you. Can you confirm that all 
of the counties and the communities that surround the Thunder 
Bay Sanctuary support the expansion of the sanctuary's 
boundaries? To your knowledge is there any local opposition to 
the expansion?
    Mr. Kroll. Thank you, Madam, but when we started our 
management plan review process we of course had some public 
hearings in counties on either side of us, and, as a result of 
those hearings, we ended up with requests from these counties 
to become part of the sanctuary. We have a lot of documentation 
of where county entities have written letters of support and 
requesting to become part of the sanctuary as adjoining 
counties.
    So as part of our management plan review process it ended 
up bringing up actually a bigger question to us. So the way I 
look at this whole process is that it is wonderful we can go 
back and do these public hearings and do this process. Now 
Senator Levin has introduced in this bill. In a way, all we are 
going to do is really duplicate what already in a sense has 
been done by virtue of actual, if you wish, error by the fact 
that people came to us rather than we go to them.
    So this documentation is there, there is many county 
entities, local government groups, private groups that have 
written letters of support in requesting us to expand the 
sanctuary. So if we go right out there back to them for the 
same reason, you know, this would be a whole lot better process 
in my mind.
    Ms. Bordallo. So generally then you would say that they are 
in support?
    Mr. Kroll. They are absolutely 110 percent in support the 
way I look at it.
    Ms. Bordallo. Very good. We will put that down in the 
notes. I have, yes, another question for Mr. Sullivan. My 
legislation would direct NOAA to complete an inventory of 
maritime heritage resources in the United States and include a 
selection of such areas in a new site selection list for 
potential designation as new marine sanctuaries.
    To complete these tasks, the bill would amend the 
Sanctuaries Act to allow NOAA to withhold from the public 
resource information in order to protect the resource from 
harm. Do you support this particular provision?
    Mr. Sullivan. I think as everything depends on facts of an 
individual situation and the law has to be applied, but in 
general, for good reasons and for a limited time, yes, I think 
that would make a good deal of sense in terms of protecting the 
integrity of the process to produce the best results.
    Ms. Bordallo. You think it should be mentioned or is the 
provision not necessary?
    Mr. Sullivan. I think it would be a good thing to keep it 
in.
    Ms. Bordallo. Thank you very much. I have another question 
now for Ms. Spruill. Other witnesses have raised the prospect 
that President Bush might use his authority under the 
Antiquities Act to designate new marine national monuments 
before he leaves office.
    Now, regardless of whether you think this is good or bad, 
do you believe the existing statutory limitation on the 
designation of new marine sanctuaries has left the President 
with few, if any other options to protect nationally 
significant portions of the marine environment?
    Ms. Spruill. Thank you, Madam Chair. I think what you are 
touching on now, you are mentioning some of the minor concerns 
that I raised in my testimony. There are sort of four points 
that we think could be fairly easily addressed. One of them is 
that the language on the marine national monuments not undercut 
the Antiquities Act or the proclamation creating them.
    We think that there is some modification of the language in 
the bill that could help that situation. We also think adequate 
public review is provided for the resource classification, 
identification and inventory procedures, and then a couple of 
other minor points that we can certainly follow-up with later.
    Ms. Bordallo. Thank you very much. The Chair now recognizes 
Mr. Wittman for any questions he may have.
    Mr. Wittman. Thank you, Madam Chairwoman. Another question 
for Mr. Dunnigan. You had said a little bit earlier that there 
was no conflict between the Sanctuary Program and the National 
Marine Fishery Service. If you look back, in 2005, Senator 
Inouye asked for some clarification. As I understand it, the 
internal operational guidelines are still not final.
    Can you give us an idea about when you think those internal 
guidelines will be final?
    Mr. Dunnigan. Thank you, sir. Yes. I expect that they will 
be final within the next couple of weeks, if not sometime early 
next week. We were trying to get them done, understanding the 
Committee's work, and just have had some final touch ups that 
we have had to do to that.
    Vice Admiral Lautenbacher wrote Senator Inouye a letter at 
that time two years ago, and that letter is still our 
understanding of how these programs can work together. The 
guidelines are not so much guidelines as they are an 
explanation of the processes and how they relate to each other.
    Mr. Wittman. And you will make sure you provide copies of 
that to the members of the Committee once the guidelines come 
out?
    Mr. Dunnigan. Yes, sir.
    Mr. Wittman. OK. Thank you. One other additional question. 
You had spoken earlier about how there are some fishery 
scientists available within the National Marine Sanctuaries Act 
area to make decisions. Can you tell us how many fishery 
scientists are actually assigned to decisionmaking within the 
National Marine Sanctuaries Act?
    Mr. Dunnigan. I can get you some detail on that, sir. I 
don't have that number with me right now.
    Mr. Wittman. OK. That would be great if you could do that.
    Mr. Dunnigan. Be glad to. Thank you.
    Mr. Wittman. For Mr. Sullivan. You had spoken a little bit 
earlier about obviously the mission of the Marine Science 
Museum. Can you give us an idea about how you believe this 
reauthorization of the National Marine Sanctuaries Act would 
actually help an entity, like the Marine Science Museum, in 
accomplishing its mission?
    Mr. Sullivan. I think I should first say that without the 
National Marine Sanctuary Act I doubt seriously that the 
magnificent facility we have in Newport News, working in 
conjunction with our partners at NOAA, would exist. I mean, it 
made possible the preservation and the recovery of Monitor 
artifacts.
    So it is a powerful example of when done right what an 
institution like mine, a private museum, can accomplish working 
with a government agency to preserve an important part of our 
marine heritage. So I am not a national expert, my expertise is 
limited to your district, Congressman, but I think we could be 
an example that could be applied, and probably is being 
applied, in other parts of the country and in additional places 
if this reauthorization is complete.
    Mr. Wittman. Thank you, Mr. Sullivan. Thank you, Madam 
Chairwoman.
    Ms. Bordallo. I thank the gentleman from Virginia. Now the 
Chair recognizes the Ranking Member. Do you have any questions?
    Mr. Brown. No, ma'am. Thank you.
    Ms. Bordallo. He passes. All right. I guess I have three 
quick questions to Mr. Dunnigan. This is for H.R. 6204, the 
Thunder Bay Sanctuary Expansion. What are NOAA's views on H.R. 
6204, and are the State of Michigan and the two affected 
counties in full support of this expansion, and what additional 
costs will this expansion impose on the Sanctuary Program's 
annual budget?
    Mr. Dunnigan. One, two, three, Madam Chair. First of all, 
we don't have a specific administration view on that bill.
    We recognize that the values that the bill would promote 
are consistent with the existing sanctuary and so it is the 
kind of thing that we think could be a good idea, although 
generally we think that it is better for these kinds of 
decisions to be made through the administrative processes 
rather than having a lot of them turned down in legislation.
    Second, in terms of the specific amount, the support, 
rather, of the counties in the State of Michigan, our 
impression is that the local governments are in support of 
supporting, and strengthening, and broadening the sanctuary. I 
do not know what the position formally of the state is.
    Third, on the question of how much more would it cost us to 
administer the sanctuary, we haven't done that kind of an 
analysis yet, but when we have it, we would be glad to make it 
available.
    Ms. Bordallo. All right. Ms. Spruill, you noted your 
support for the updated findings that recognized the several 
ecological benefits that are derived from the use of marine 
protected areas, including marine reserves. Mr. Gudes and Mr. 
Marks to the contrary seem to believe that the science behind 
these strategies remains inconclusive.
    So can you tell us, what is the present scientific 
consensus on the ecological function and the benefits from 
using marine protected areas?
    Ms. Spruill. I think there is no doubt that marine 
protected areas and marine reserves, and we have to be careful 
about the language because it means different things in very 
different places, but there is no doubt that marine protected 
areas, the no take areas, are having a significant impact on 
ecological systems in the ocean.
    You know, I think, again, we have to look at these systems 
as long-term investments in our future, and we need a series of 
these tools. I think the Channel Islands has been probably the 
best example. Congresswoman Capps already mentioned the fishing 
along the line. We are seeing that in the Florida Keys as well.
    So we are not only seeing more science with regard to 
marine reserves, we are also beginning to see results. So it is 
clear that it needs to be part of the system.
    Ms. Bordallo. Thank you. Thank you very much. I want to 
thank all of the witnesses for their participation in the 
hearing today, and particular to thank my Ranking Member, Mr. 
Brown from South Carolina, for being here with us, and Mr. 
Wittman, the gentleman from Virginia. Ranking Member has a 
comment/question.
    Mr. Brown. Madam Chair, I would like to enter in the 
records a letter to the President from the Sport Fishing 
Association and others, and also a statement from fishery 
community on marine protected areas.
    Ms. Bordallo. No objection. So ordered. I will also like to 
remind the members of the Subcommittee, they may have 
additional questions for the witnesses and we will ask you to 
respond to these in writing. The hearing record for all 
involved will be held open for 10 days for these responses.
    If there is no further business before the Subcommittee, 
the Chairwoman again thanks the members of the Subcommittee and 
all of our witnesses this morning. The Subcommittee on 
Fisheries, Wildlife and Oceans stands adjourned.
    [Whereupon, at 12:20 p.m., the Subcommittee was adjourned.]

                                 <all>

</pre></body></html>
